VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                    Veterans Benefits 

                                                                     Administration 

                                                                           Audit of 

                                                                       the Quick Start

                                                                          Program 





                                                                                          May 20, 2014
                                                                                          12-00177-138

             ACRONYMS AND ABBREVIATIONS

ADTC         Average Days To Complete
BDD          Benefits Delivery at Discharge
C&P          Compensation and Pension
CPS          Consolidated Processing Site
CFR          Code of Federal Regulations
DoD          Department of Defense
FTE          Full-Time Employee
FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
STAR         Systematic Technical Accuracy Review
TAP          Transition Assistance Program
VA           Veterans Affairs
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VOR          Veterans Service Network Operations Report




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Audit of VBA’s
                   Quick Start Program

Why We Did This Audit                         What We Recommended 

The Veterans Benefits Administration          We recommended the Under Secretary for
(VBA) reported the Quick Start Program        Benefits increase Veterans Service Network
processed about 30,900 disability claims in   Operation Report capabilities, include
FY 2013.            This program offers       pre-discharge     processing      time     in
servicemembers a seamless transition from     performance results, conduct recurring
the Department of Defense into VA’s health    program evaluations, perform systematic
care system. We evaluated the program’s       reviews of Quick Start claims processing,
effectiveness at processing claims timely     and provide training on issues identified.
and accurately, comparing results from 2011
to 2013, to determine if VBA’s timeliness     Agency Comments
and accuracy of claims processing improved
during this period.                           The Under Secretary for Benefits concurred
                                              with Recommendations 3 through 7 and 9;
What We Found                                 and provided plans for corrective actions
                                              and requested the Office of Inspector
In FY 2013, VBA successfully reduced          General       (OIG)        close      these
Consolidated Processing Site’s (CPS) Quick    recommendations.     However, the Under
Start claims pending inventory by about       Secretary for Benefits non-concurred with
8,800 (51 percent) and reduced the average    Recommendations 1, 2, and 8, stating OIG’s
days to complete (ADTC) a claim from 291      findings on timeliness, backlog issues, and
days in 2011 to 249 days for the period of    rating accuracy were not attributable to
April through June 2013. The ADTC             VBA’s program oversight or management.
remained high because VBA lacked
adequate program controls.                    OIG Response
We projected veterans using the Quick Start   OIG’s audit evidence sufficiently and
Program in 2011 experienced an average        appropriately provides a reasonable basis for
delay of 196 days in receiving benefits       our findings and conclusions. We requested
valued at about $88 million. This improved    VBA to provide OIG documentation of
from April through June 2013, when the        actions taken and will follow up on
delays averaged only 99 days.                 implementation of the corrective actions.
                                              Where VBA non-concurred, OIG will
However, we estimated VBA accurately          continue its scrutiny and reporting.
processed 62 percent of Quick Start claims
during 2011, improving to about 69 percent
during the period April through June 2013.
Accuracy rates are still considered low
because of insufficient oversight and
training, and conflicting guidance on                    LINDA A. HALLIDAY
granting service connection for medical              Assistant Inspector General
disabilities.                                         for Audits and Evaluations
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    Finding 1                  VBA Can Improve the Timeliness of Quick Start Claims Processing ...........2
 
                               Recommendations...........................................................................................8
 
    Finding 2                  VBA’s Quick Start Claims-Processing Accuracy Needs Significant 

                               Improvement .................................................................................................12
 
                               Recommendations.........................................................................................17 

Appendix A                     Background .................................................................................................. 21
 

Appendix B                     Scope and Methodology .............................................................................. 23
 

Appendix C                     Statistical Sampling Methodology ............................................................... 25
 

Appendix D                     VBA and OIG Discussions Related to Quick Start Claims-Processing 

                               Inaccuracies.................................................................................................. 29
 

Appendix E                     Under Secretary for Benefits Comments ..................................................... 31
 

Appendix F                     OIG Response to Under Secretary for Benefits Technical Comments ........ 39
 

Appendix G                     VBA and OIG Disagreements on Claims-Processing Inaccuracies ............ 43
 

Appendix H                     Office of Inspector General Contact and Staff Acknowledgments ............. 49
 

Appendix I                     Report Distribution ...................................................................................... 50
 
                                                                Audit of VBA’s Quick Start Program



                     INTRODUCTION
Objective            This audit evaluated the effectiveness of the Veterans Benefits
                     Administration’s (VBA) Quick Start Program to process claims timely and
                     accurately.

Pre-Discharge        The purpose of the Pre-Discharge Program is to offer servicemembers a
Program              seamless transition from the Department of Defense (DoD) health care
                     system into the VA medical and benefits system. A key Pre-Discharge
                     Program goal is to provide disability benefits to veterans soon after DoD
                     discharge. The Pre-Discharge Program allows servicemembers to file claims
                     up to 180 days before discharge at intake sites located at DoD and VA
                     facilities in the United States, Germany, and South Korea. VA Regional
                     Offices (VAROs) are also intake sites. The VBA/DoD Program Office
                     administers the Pre-Discharge Program.

Quick Start          The Quick Start Program, which VBA initiated in 2008, is a component of
Program              its Pre-Discharge Program. Servicemembers may file Quick Start claims at
                     intake sites 1 to 59 days prior to military discharge. They may also file
                     Quick Start claims 60 to 180 days prior to discharge if they are unavailable
                     to complete required medical examinations before discharge. Intake sites
                     initiate claims processing then forward claims to Consolidated Processing
                     Sites (CPSs) or designated Day One Brokering Centers. Quick Start claims
                     are processed at CPSs collocated with the San Diego and Winston-Salem
                     VAROs; and Day One Brokering Centers, collocated with the Columbia and
                     San Diego VAROs. VBA reported the Quick Start Program processed
                     approximately 22,200 disability claims in FY 2011, 34,900 in FY 2012, and
                     30,900 in FY 2013. CPSs in San Diego and Winston-Salem process most
                     Quick Start claims.

VBA Plans To         In 2011, the President signed into law the Veterans Opportunity to Work to
Combine              Hire Heroes Act that includes a mandate for servicemembers to participate in
Programs             the Transition Assistance Program (TAP). VBA estimates this mandate will
                     double the number of servicemembers participating in TAP from 150,000 to
                     300,000 per year and significantly increase the number of pre-discharge
                     claims. In response, VBA officials indicated they are considering combining
                     the stand-alone Quick Start and Benefits Delivery at Discharge (BDD)
                     Programs into one new program.

Other                The following appendixes provide additional information:
Information
                     	 Appendices A through C provide detailed background information; the
                        audit scope and methodology, and our statistical sampling methods
                     	 Appendix D summarizes VBA and Office of Inspector General (OIG)
                        discussions on Quick Start claims-processing inaccuracies



 VA Office of Inspector General                                                                 1
                                                                     Audit of VBA’s Quick Start Program



                    RESULTS AND RECOMMENDATIONS
Finding 1 	         VBA Can Improve the Timeliness of Quick Start Claims
                    Processing

                    VBA improved Quick Start claims-processing timeliness by reducing the
                    average days to complete (ADTC) from 291 days in 2011 to 249 days for the
                    period of April through June 2013.1 However, VBA needs to reduce the
                    249-day average to achieve the VA Secretary’s FY 2015 target of an average
                    of 125 days to process disability claims.            VBA can improve
                    claims-processing timeliness of Quick Start claims by ensuring Quick Start
                    Program controls include:

                    	 Veterans Service Network Operations Report (VOR) automated system
                       reports that track claims pending prior to military discharge
                    	 Recurring evaluations to assess CPSs’ ability to meet program targets
                    	 Mandatory training on accurately identifying and processing Quick Start
                       claims for CPS and intake site claims assistants

                    As a result, we projected veterans using the Quick Start Program in
                    2011 experienced an average delay of 196 days in receiving benefits totaling
                    about $88 million. During the period of April through June 2013, delays
                    averaged 99 days affecting the delivery of approximately $20.5 million of
                    benefits. The delay in payments had the potential to adversely affect
                    veterans’ quality of life.

Improvement 	       Significant opportunities exist for CPSs to improve Quick Start
Opportunities	      claims-processing timeliness. VBA improved Quick Start claims-processing
                    timeliness by reducing the ADTC from 291 days in 2011 to 249 days for the
                    period of April through June 2013. However, VBA still needs to reduce the
                    249-day average to achieve the VA Secretary’s FY 2015 target of 125 days
                    to process disability claims.

                    VBA improved its ADTC by reducing after discharge processing days from
                    250 days in 2011 to 192 days for the period April through June 2013.
                    However, the before-discharge processing days increased from 41 days to
                    57 days for the same period. The evidence-gathering phase averaged
                    125 days or the same as the Secretary’s 125-day average target for
                    completing all phases of claims processing.

                    Quick Start claims processing includes six distinct phases—establishment,
                    development initiation, evidence gathering, rating, award, and authorization.

                    1
                    We reviewed claims-processing during two distinct time periods to compare and evaluate
                    VBA’s progress towards achieving timeliness and accuracy goals.


VA Office of Inspector General                                                                          2
                                                                        Audit of VBA’s Quick Start Program


                    Each phase includes specific claims-processing actions CPSs must complete
                    within a specific time period. Appendix A provides additional details on the
                    types of actions completed during each phase.

                    VBA reported the ADTC for all disability claims completed during
                    FY 2011 was about 188 days, and approximately 227 days as of December
                    2011. The ADTC continued to increase and by June 2013 it was just over
                    337 days. Table 1 shows that the ADTC for Quick Start claims during
                    2011 exceeded the ADTC for all disability claims and Quick Start’s ADTC
                    improved from 2011 to 2013.

                     Table 1. OIG Analysis of VBA’s Quick Start Program’s Average Days
                                       To Complete Disability Claims
                                                        2011                   2013             Days
                            Descriptions          January-December           April-June       Difference
                      Before Discharge                     41                     57              16
                      After Discharge                     250                    192             -58
                       Totals                             291                    249             -42
                      Processing Phase
                      Development Initiation               55                     37             -18
                      Evidence Gathering                  148                    125             -23
                     Rating                                 71                     70             -1
                     Source: VA OIG statistical analysis of Quick Start claims processing
                    Most of VBA’s Quick Start claims-processing timeliness improvements
                    occurred in the development initiation, evidence gathering, and rating
                    phases. However, CPSs can further improve processing Quick Start claims
                    by timely requesting compensation and pension (C&P) examinations,
                    following up on evidence requests, and completing ratings. The following
                    example highlights typical claims-processing delays that occur as claims
                    move through the Quick Start Program.

                    	 Development Initiation. On May 3, 2012, staff at the Winston-Salem
                       CPS received an established Quick Start claim from the Landstuhl,
                       Germany, intake site. However, the Winston-Salem CPS did not initiate
                       development by requesting a C&P examination until November 15, 2012,
                       or 196 days after the claim was established.
                    	 Evidence Gathering. On January 2, 2013, the Washington VA medical
                       center made the C&P examination report available to Winston-Salem
                       CPS staff. The examination report was the only evidence needed to
                       complete the evidence-gathering phase. Winston-Salem CPS staff did
                       not review the C&P examination report until January 15, 2013, or
                       13 days after it became available.




VA Office of Inspector General                                                                             3
                                                                    Audit of VBA’s Quick Start Program


                    	 Rating. Winston-Salem CPS completed the rating on May 3, 2013, or
                       107 days after completing evidence gathering.
                    	 Result. Untimely actions during these three phases delayed the receipt of
                       nearly $8,000 in benefit payments to the veteran over a period of
                       294 days.

Significant         In FY 2010, the San Diego and Winston-Salem CPSs’ claims-processing
Improvement         timeliness were near VBA’s target of 125 days. During FYs 2011 and 2012,
Needed To
Achieve Target
                    both CPSs’ claims-processing timeliness declined. By FY 2012, the ADTC
                    for the Winston-Salem CPS was 405 days and the San Diego CPS was
                    270 days.    In FY 2013, although both CPSs had improved their
                    claims-processing timeliness, the CPSs’ ADTC were still 240 and 255 days,
                    or about double the 125-day average target. The figure shows the
                    claims-processing timeliness performance for FY 2010 through FY 2013.

                           Figure 1. The Quick Start Program’s ADTC Compared With 

                                          Program’s Strategic Target 





                      Source: VBA Office of Performance Analysis and Integrity, Quick Start workload
                      reports

Reasons for         CPSs did not process Quick Start claims timely because VBA lacked
Increased           adequate program controls. VBA policies require program managers to
Processing
Times
                    establish controls that ensure effective use of resources to achieve program
                    missions and goals. By establishing the following controls, VBA can reduce
                    Quick Start claims-processing time:

                    	 Increasing VOR capabilities
                    	 Performing recurring program evaluations
                    	 Conducting mandatory training on Quick Start claims identification

VOR                 Claims-processing delays occurred prior to discharge because intake site
Capabilities        staff did not have an adequate VOR to track Quick Start claims development.



VA Office of Inspector General                                                                         4
                                                                 Audit of VBA’s Quick Start Program


                    VOR is VBA’s automated system that provides data on a continuing basis
                    regarding the number of Quick Start claims received and completed. In
                    addition, intake site and CPS staff use VOR as a tool to assist staff in
                    monitoring required claims-processing actions through establishment of
                    suspense dates for actions, such as following up on C&P examination and
                    private medical record requests.

                    However, VOR does not track pending days for individual Quick Start
                    claims from the date VBA receives and establishes active servicemembers’
                    claims to the date DoD discharges servicemembers. Therefore, CPS staff did
                    not have this VOR information available to identify and process the oldest
                    pending Quick Start claims first. Since servicemembers may submit Quick
                    Start claims up to 180 days before discharge, it is critical that VOR has the
                    capability to track Quick Start claims prior to discharge.

VBA Does Not        VBA’s Quick Start claims-processing timeliness performance results do not
Measure             include claims-processing time prior to servicemembers’ discharge. For
Timeliness
Before
                    2011, we projected the Quick Start ADTC included 41 days before DoD
Discharge           discharged the servicemembers. For the period April through June 2013, the
                    ADTC before DoD discharged servicemembers increased to 57 days.

                    VBA executives contend that pre-discharge claims-processing time should
                    not be included in timeliness performance measures because some
                    pre-discharge claims-processing activities are outside VBA’s control, such as
                    the time VA facilities take to schedule and complete medical examinations.
                    However, measuring this time is a true representation of the time it takes to
                    process a claim in this program. VBA lacks control over the same type of
                    claims-processing activities during post-discharge claims processing, yet
                    includes time for performing these activities in timeliness performance
                    measures.

                    VBA needs to account for time spent processing Quick Start claims,
                    regardless of whether claims processing occurs before or after discharge.
                    Excluding the time VBA staff spend on processing Quick Start claims before
                    discharge prevents VBA and CPS managers from having the information
                    needed to improve claims-processing timeliness. If VBA does not measure
                    the true representation of the time it takes to process Quick Start claims, it
                    cannot accurately determine the number of resources needed to process the
                    claims timely.

Recurring           VBA did not conduct formal and in-depth recurring evaluations of Quick
Program             Start Program operations and controls. Current policies require managers to
Evaluations
                    ensure programs achieve their intended results, use resources consistent with
                    VBA’s mission, and protect programs from mismanagement. VBA
                    evaluations of the program need to include systematic reviews that assess
                    how well the program is working and examine achievements within the



VA Office of Inspector General                                                                   5
                                                                          Audit of VBA’s Quick Start Program


                    context of other performance aspects, such as process/implementation,
                    outcome, impact, and cost benefit evaluations.

                    VBA did not maintain sufficient staffing to process Quick Start claims
                    inventories timely. VBA officials stated they have a limited number of staff
                    to complete a large volume of disability claims. They also stated VBA used
                    Quick Start Program staff to process higher priority Nehmer claims.2 While
                    VBA used a staffing model to allocate most staffing resources, it did not use
                    the model or any other formal process to estimate staff needed for the
                    program. Consequently, CPS staffing levels did not keep pace with program
                    workload through FY 2013. Table 2 shows the quarterly changes in pending
                    inventory and staffing during FYs 2010 to 2013.

                        Table 2. Illustration of the Changes in the Quick Start Claims-Pending
                                      Inventory Compared with the CPS Staffing

                                                                                                   Pending
                                                  Pending Inventory            Staffing           Inventory
                                                                                                   Per FTE
                                                               Percent               Percent
                          FY      Quarters        Claims                    FTE                    Claims
                                                               Change                Change
                                    1st           2,862                     127                       23
                                    2nd           6,205        117          132          4            47
                         2010
                                    3rd          11,081         79          161         22            69
                                      th
                                    4            16,049         45          162          1            99
                                    1st          18,880         18          164          1           115
                                    2nd          20,843         10          159         (3)          131
                         2011         rd
                                    3            22,318          7          160          1           139
                                      th
                                    4            24,522         10          124        (23)          198
                                    1st          27,923         14          173         40           161
                                    2nd          28,467          2          218         26           131
                         2012         rd
                                    3            24,692        (13)         263         21            94
                                      th
                                    4            17,397        (30)         261         (1)           67
                          3-Year Change          14,535       508%          134       106%
                                    1st          12,505        (28)         256         (2)           49
                                      nd
                                    2            11,097        (11)         260          2            43
                         2013
                                    3rd           9,663        (13)         255         (2)           38
                                      th
                                    4             8,559        (11)         250         (2)           34
                          1-Year Change          (8,838)      (51)%        (11)         (4)
                         Source: VBA Office of Performance Analysis and Integrity and CPS staffing reports

                    From FY 2010 through FY 2012, Quick Start pending claims inventory
                    increased over 500 percent, while staffing levels increased about

                    2
                     Under the order of U.S. District Court for the Northern District of California, in Nehmer
                    versus U.S. Department of Veterans Affairs, VA must re-adjudicate previously denied claims
                    known as Agent Orange/Nehmer claims.


VA Office of Inspector General                                                                                6
                                                                 Audit of VBA’s Quick Start Program


                    100 percent. This caused the quarterly pending inventory per full-time
                    employee (FTE) to increase from a low of 23 claims to a high of 198 claims.
                    In FY 2012, staffing levels increased significantly from 173 to 261 FTEs,
                    which reduced pending inventory per FTE to 67 claims.                 From
                    FY 2012 through FY 2013, VBA successfully reduced CPS’s Quick Start
                    claims pending inventory by about 8,800 or 51 percent.

Staff Not Used      When VBA makes staffing allocation decisions, it needs to ensure VAROs
as Approved         use staff for the intended purpose or request approval from VBA to use the
                    staff for another purpose. The following instance highlights how a VARO’s
                    use of allocated staff for a different purpose than intended adversely affected
                    Quick Start claims-processing timeliness. In March 2011, the San Diego
                    VARO requested 78 additional FTEs for the CPS. The request cited
                    increases in Quick Start claims of over 400 percent from FY 2009 through
                    FY 2010. The request also compared the period October through February
                    for FYs 2010 and 2011, which showed a claims receipt increase of just over
                    50 percent. In response, VBA increased the CPS’s ceiling by 30 staff to
                    130 FTEs in April 2011. However, according to CPS managers, the
                    Veterans Service Center kept the 30 staff and took 44 additional staff from
                    the CPS to complete more than 8,000 Nehmer claims.

                    Consequently, the San Diego CPS’s pending inventory increased by
                    15 percent from about 10,100 to nearly 11,600 claims and ADTC increased
                    33 percent from 222 days to 295 days from April 2011 through March 2012.
                    VARO management eventually shifted the 44 staff back to the CPS in
                    October 2011 and added the 30 staff to increase the CPS’s ceiling in March
                    2012. This was nearly a year after VBA approved the ceiling increase for
                    CPS San Diego staff.

                    Since VBA expects a significant increase in pre-discharge claims, it is
                    critical that VBA perform recurring program evaluations. These evaluations
                    should include performing ongoing assessments regarding the effective use
                    of staffing resources, regardless of whether VBA processes claims through
                    Quick Start or other Pre-Discharge Programs.

Training on         Quick Start claims-processing timeliness experienced processing delays
Quick Start         because claims assistants did not receive adequate training on identifying and
Claims
                    processing Quick Start claims. For 45 of 90 claims randomly selected from
                    incoming mail at CPSs and two VARO intake sites from April through
                    August 2012, claims assistants incorrectly performed at least one processing
                    action. Of the 45 claims incorrectly processed, claims assistants misrouted
                    23 claims to incorrect VBA facilities and misidentified 9 claims as the wrong
                    type of claim.

                    To ensure VBA staff process Quick Start claims timely, claims assistants at
                    intake sites and CPSs must receive training on correctly identifying and
                    processing Quick Start claims. The example on the next page highlights how


VA Office of Inspector General                                                                   7
                                                                Audit of VBA’s Quick Start Program


                    misidentifying and misrouting claims adversely affected claims-processing
                    timeliness and delayed the processing of a veteran’s claim.

                    	 On January 23, 2012, a VARO intake site received a foreign claim (non-
                       Quick Start claim) from a servicemember residing in Japan. The
                       Pittsburgh VARO is responsible for processing foreign claims. However,
                       a claims assistant misidentified the claim as a Quick Start claim and
                       shipped it to the Winston-Salem CPS on February 7, 2012. Over a period
                       of almost 3.5 months, claims assistants at the CPS and VARO continued
                       to ship the claim back and forth without initiating processing.
                       Eventually, the Pittsburgh VARO began processing the claim on May 18,
                       2012. According to Pittsburgh VARO and Winston-Salem CPS
                       managers, claims assistants frequently misrouted claims between the two
                       facilities, which delayed processing for both Quick Start and non-Quick
                       Start claims.

Results of          Insufficient program controls contributed to untimely benefit payments to
Insufficient        veterans. As a result, we projected veterans using the Quick Start Program in
Controls
                    2011 experienced an average delay of 196 days in receiving benefits totaling
                    approximately $88 million. During the period of April through June 2013,
                    delays averaged 99 days for approximately $20.5 million of benefits. The
                    delay in payments had the potential to adversely affect veterans’ quality of
                    life.

Conclusion          VBA improved the timeliness of Quick Start claims processing in 2013.
                    However, VBA still needs to significantly improve timeliness to achieve the
                    Secretary’s FY 2015 target of averaging 125 days to process disability
                    claims. VBA can enhance the effectiveness of the program by increasing
                    VOR capabilities, conducting recurring program evaluations that identify
                    needed staffing adjustments, and providing training on processing Quick
                    Start claims. Implementing these improvements will help VBA achieve
                    Quick Start Program goals. These improvements will also help VBA address
                    the growth in claims expected through the program or any successor
                    program.

                    Recommendations

                    1.	 We recommended the Under Secretary for Benefits establish Veterans
                        Service Network Operations Report capabilities to track claims from the
                        date the Veterans Benefits Administration receives and establishes active
                        servicemembers’ claims to the date of servicemembers’ discharge from
                        military service.
                    2.	 We recommended the Under Secretary for Benefits track and report
                        claims-processing time prior to servicemembers’ discharge in timeliness
                        performance results for the Quick Start Program or its successor.



VA Office of Inspector General                                                                  8
                                                                 Audit of VBA’s Quick Start Program


                    3.	 We recommended the Under Secretary for Benefits conduct recurring
                        evaluations that identify needed staffing adjustments to ensure sufficient
                        staff are allocated to accomplish the timeliness targets of the Quick Start
                        Program or its successor.
                    4.	 We recommended the Under Secretary for Benefits require Consolidated
                        Processing Site and intake site claims assistants staff obtain periodic
                        training on identifying and processing claims submitted through the
                        Quick Start Program or its successor.

Management          The Under Secretary did not concur that untimely claims processing
Comments            occurred because of inadequate program controls. The Under Secretary
and OIG             stated the untimeliness was primarily the result of VBA outreach, veterans’
Response
                    use of technology to learn about available benefits, demand for compensation
                    resulting from twelve years of war, and VA efforts to provide benefits to
                    veterans exposed to Agent Orange. The Under Secretary also stated VBA’s
                    Transformation initiatives have resulted in steady improvements in the
                    timeliness of Quick Start claims processing. The Under Secretary for
                    Benefits concurred with Recommendations 3 and 4.

                    The Under Secretary attributed untimely Quick Start claims processing to
                    various factors that resulted in veterans submitting additional disability
                    compensation claims.           Regardless of fluctuations in VBA’s
                    claims-processing workload, policies require managers to implement
                    controls and ensure VBA effectively uses resources to achieve VBA’s
                    mission. Instead of ascribing delays to veterans seeking entitled benefits,
                    VBA management needs to focus on how VBA can improve
                    claims-processing timeliness by strengthening the operations and controls of
                    the Quick Start Program or its successor.

                    While contradictory to the Under Secretary’s introductory comments, the
                    Under Secretary agreed with two of the OIG’s recommendations. These
                    recommendations were that VBA needed to strengthen controls to ensure
                    appropriate staffing allocations for VBA’s new pre-discharge program and
                    claims assistants obtain periodic training on identifying and processing
                    claims submitted through the Quick Start Program or its successor.
                    Following is a summary of the Under Secretary’s comments for each
                    recommendation and our responses.

Recommendation 1 Management Comments: The Under Secretary for Benefits non-concurred
                    with Recommendation 1 and stated an additional VOR is not needed because
                    current VOR Future Claim Diary reports track the date an intake site
                    establishes a claim and the date following the servicemember’s separation
                    from military service, as well as development progress.

                    OIG Response: OIG acknowledges VBA’s non-concurrence. However, we
                    noted in VBA’s response that VBA has already implemented this
                    recommendation.


VA Office of Inspector General                                                                   9
                                                               Audit of VBA’s Quick Start Program


Recommendation 2 Management Comments: The Under Secretary for Benefits non-concurred
                    and stated VA does not consider the period between receipt of Quick Start
                    claims and servicemembers’ separation from service in its timeliness
                    calculations because:

                    	 VA has no legal authority to pay benefits until the claimant is separated
                       from military service.
                    	 The active duty service time may be extended, or the servicemember may
                       decide to remain on active duty.
                    	 Inclusion of time waiting for a servicemember to separate from service
                       would not be an accurate measure of VA’s timeliness.
                    	 The time that elapses between receipt of a pre-discharge claim and the
                       award of benefits may not be directly related to the development of the
                       claim.

                    OIG Response: OIG acknowledges VBA’s non-concurrence, but maintains
                    VBA’s reasons are not valid because:

                    	 The legal authority preventing VBA from paying benefits until DoD
                       discharges servicemembers from military service does not prevent VBA
                       from tracking the time and resources spent developing Quick Start claims
                       before DoD discharges servicemembers. Without the tracking of time
                       and resources invested in this program initiative, VBA will lack the
                       information needed to measure the program’s effectiveness.
                    	 If servicemembers extend active duty time less than 60 days from the
                       expected discharge date at the time they submit their Quick Start claims,
                       VBA generally continues to process their claims and thus, this time
                       should be included in VBA’s timeliness calculations. Generally, if
                       servicemembers extend active duty time for 60 days or more, VBA does
                       not process the claim under the Quick Start Program and time spent
                       processing the claim should not be included in VBA’s Quick Start
                       timeliness calculations. When a servicemember extends their active duty
                       status, prudent program management would require VBA to track the
                       resources used in order to measure the program’s effectiveness.
                    	 Regardless of whether or not VBA is waiting for servicemembers to
                       separate from military service, all time and resources VBA spends
                       performing Quick Start claims-processing activities should be included in
                       Quick Start performance metrics.
                    	 For other disability claims, VBA considers all time from the date VBA
                       receives the claim to the date VBA awards benefits as directly related to
                       claims processing, and includes the time in its timeliness calculations.
                       VBA should do the same for Quick Start claims.




VA Office of Inspector General                                                                10
                                                                 Audit of VBA’s Quick Start Program


                    By not including the pre discharge Quick Start claims processing time in its
                    performance metrics, VBA can report more timely Quick Start claims
                    processing to stakeholders. However, by taking this approach, VBA does
                    not accurately report the total time taken to process claims and provide
                    veterans their benefits. If VBA does not measure the true representation of
                    time it takes to process Quick Start claims, it cannot accurately determine the
                    number of resources needed to process the claims timely. Not monitoring
                    claims-processing activities during pre-discharge time also limits VBA’s
                    information on challenges in this stage of claims processing and may hinder
                    VBA from taking action to address them. Most importantly, tracking
                    resources and time provides the view that is relevant to our veterans, who
                    measure the program’s effectiveness based upon the date they file their claim
                    to the date they receive information that benefits have been approved.

Recommendation 3 Management Comments: The Under Secretary for Benefits concurred and
                    stated VBA is developing a new Pre-Discharge Program that will replace the
                    Quick Start Program. The VBA/DoD Program Office and the Office of Field
                    Operations are working to ensure appropriate staffing allocations for the new
                    Pre-Discharge Program. VBA requested closure of this recommendation.

                    OIG Response: VBA’s planned actions meet the intent of OIG’s
                    recommendation. To close this recommendation, VBA needs to provide
                    OIG documentation of recurring evaluations identifying needed staff and the
                    decisions VBA makes to ensure sufficient staff are allocated to the new
                    Pre-Discharge Program. OIG requests VBA to provide this documentation
                    by April 30, 2015.

Recommendation 4 Management Comments: The Under Secretary for Benefits concurred and
                    stated VBA’s August 21, 2013, Fast Letter 13-20, “Compensation Service
                    National Training Curriculum for Fiscal Year 2014,” prescribes an initial
                    curriculum, which mandated training for all newly hired claims assistants. In
                    addition, claims assistants are required to complete 16 hours of station-
                    selected training during fiscal year 2014.

                    OIG Response: VBA’s planned actions meet the intent of OIG’s
                    recommendation. To close this recommendation, VBA needs to provide
                    OIG documentation summarizing claims assistants’ training completed
                    during FY 2014. OIG requests VBA to provide this documentation by
                    April 30, 2015. We will monitor implementation of these actions and will
                    close the recommendations when we receive sufficient documentation
                    demonstrating VBA progress in addressing the issues identified.




VA Office of Inspector General                                                                  11
                                                                        Audit of VBA’s Quick Start Program


Finding 2           VBA’s Quick Start Claims-Processing Accuracy Needs
                    Significant Improvement

                    VBA needs to further improve Quick Start claims-processing accuracy rates.
                    We projected that CPSs accurately processed 62 percent of Quick Start
                    claims in 2011 and increased accuracy to about 69 percent during the period
                    of April through June 2013. The 69 percent accuracy rate falls short of
                    VBA’s FY 2015 98 percent goal for processing disability claims by
                    29 percentage points.

                    Accuracy rates are still considered low because of insufficient oversight and
                    training, and conflicting guidance on granting service connection for
                    disabilities. As a result, we estimated some veterans were underpaid at least
                    $2.8 million and overpaid at least $463,000 from December 2010 through
                    July 2012.

Accuracy            We projected CPSs accurately processed about 12,300 or 62 percent of
Rates Fell          Quick Start claims during 2011 and approximately 4,400 or 69 percent of
Short of
Processing
                    claims processed during the period of April through June 2013. The
Goals               69 percent accuracy rate falls short of VBA’s FY 2015 98 percent goal for
                    processing disability claims by 29 percentage points. The inaccuracies
                    included errors where CPSs did not process medical disability compensation
                    claims in accordance with VBA policies and procedures. CPSs made the
                    following types of claims-processing errors: (The type of errors are
                    presented in the order of the frequency in which they occurred in our sample
                    results).

                       Incorrect decisions on severity level of disabilities
                       Improper denials of claimed medical conditions
                       Improper grants of claimed medical conditions
                       Inadequate C&P examinations used to rate claims
                       Failing to consider all claimed disabilities3

                    For the errors that had the potential to affect veterans benefits, claims folders
                    did not contain medical evidence needed to evaluate claimed conditions
                    properly or the errors could affect future evaluations for additional benefits.




                    3
                     This type of error only occurred for the claims sampled from the period April through June
                    2013.


VA Office of Inspector General                                                                              12
                                                                        Audit of VBA’s Quick Start Program


                    Accuracy rates improved for both impact and potential impact errors.
                    Table 3 shows the accuracy rates for 2011 and the period of April through
                    June 2013.

                            Table 3. Accuracy Rates for Quick Start Claims Processing

                                                                   2011                 2013
                                   Claims                                                          Change
                                                             January–December         April–June

                     Reviewed                                        100                    60

                     Without Any Errors                              62%                    69%     +7%

                     Without Impact Errors                           87%                    92%     +5%

                     Without Potential Impact Errors                 70%                    75%     +5%
                     Source: VA OIG statistical analysis of Quick Start claims processing

Severity of	        Rating Veterans Service Representatives (RVSR) made incorrect decisions
Service-            on severity levels of claimed service-connected disabilities. VBA’s
Connected           “Schedule of Ratings” policy details how CPSs must rate disability claims.
Disabilities
                    The policy describes the degree of disability for both individual conditions
                    and the overall disability rating as a percentage in 10 percent increments.
                    The percentage that can be awarded ranges from 0 percent for conditions that
                    are disabling but not to a compensable degree, to 100 percent for totally
                    disabling conditions.

                    Generally, monetary compensation amounts depend on the veteran’s degree
                    of service-connected disability and the number of dependents. VA pays
                    monetary benefits for combined disability ratings of 10 percent and higher.
                    The following example highlights how CPS staff made incorrect decisions
                    on the severity level of disability:

                    	 In June 2012, a VA medical examination report determined a veteran’s
                       bilateral foot condition warranted a non-compensable evaluation.
                       However, an RVSR incorrectly evaluated the veteran’s condition at 30
                       percent disabling in April 2013. Additionally, the same RVSR
                       incorrectly evaluated the veteran’s right knee condition at 10 percent.
                       The correct evaluation should have been 0 percent because the medical
                       evidence showed no objective evidence of pain on motion. VBA Quality
                       Assurance staff agreed the RVSR made incorrect decisions on the
                       severity of both conditions that resulted in overpayments to the veteran
                       totaling just over $2,800 as of July 2013.

Denied 	            CPS RVSRs improperly denied conditions, despite evidence of service
Conditions 	        connection. VBA policies require CPS RVSRs to deny disability claims if
                    medical and other records, such as service treatment records and C&P
                    medical examination reports, do not establish the claimed condition occurred
                    because of military service. The following example highlights how an


VA Office of Inspector General                                                                            13
                                                                 Audit of VBA’s Quick Start Program


                    RVSR erroneously denied service connection for a veteran’s claimed
                    conditions:

                    	 In April 2013, an RVSR incorrectly denied service connection for a
                       veteran’s hearing loss and tinnitus. Service treatment records showed the
                       veteran was diagnosed with hearing loss and tinnitus while on active
                       duty. As such, the veteran’s disabilities warranted service connection.
                       The improper claim denial resulted in this veteran not receiving the
                       benefits he was entitled to, totaling nearly $2,400 as of August 2013.
                       CPS management agreed the RVSR should not have denied the veteran’s
                       claim.

Granted             CPS RVSRs improperly granted claimed conditions, despite a lack of
Conditions          evidence warranting service connection. VBA policies state that to grant
                    service connection for a claimed disability, evidence must establish a veteran
                    incurred an injury or disease resulting in disability coincident with Armed
                    Forces service, or if pre-existing such service, was aggravated therein. The
                    following example highlights how an RVSR improperly granted service
                    connection for a veteran’s claimed condition:

                    	 In April 2013, an RVSR granted service connection for a veteran’s
                       claimed residual right arm fracture as 0 percent disabling. However, the
                       VA medical examination report noted the condition had resolved and
                       there were no residuals. VBA’s Systematic Technical Accuracy Review
                       (STAR) staff did not agree that the RVSR should have denied the
                       veteran’s claim, despite the lack of written policy showing service
                       connection is warranted for a condition with no residuals. However,
                       VBA’s STAR staff agreed VBA did not have a written policy that would
                       support the granting of this claim.

C&P                 CPS RVSRs used inadequate C&P medical examination reports to make
Examinations        decisions. RVSRs frequently use C&P medical examination reports when
                    determining the severity of claimed conditions and whether claimed
                    conditions resulted from military service. VBA policies require RVSRs to
                    return examination reports for correction, if they are insufficient to evaluate
                    claimed conditions, because they do not include required information or they
                    include conflicting information. The following example highlights how an
                    RVSR used an inadequate C&P medical examination report to make a claim
                    rating decision:

                    	 In April 2012, a veteran filed a claim for a left shoulder condition. In
                       April 2013, an RVSR issued a decision that denied service connection,
                       without having a record of a physical examination of the left shoulder.
                       As a result, the RVSR may have incorrectly denied service connection
                       for the left shoulder condition and the veteran may have received the
                       incorrect amount of disability compensation. VBA’s STAR staff
                       reviewed the claim in November 2013 and agreed the RVSR should not


VA Office of Inspector General                                                                  14
                                                                 Audit of VBA’s Quick Start Program


                        have denied the veteran’s claim without receiving an adequate C&P
                        medical examination.

Failing To          VBA policies require RVSRs to consider every disability that veterans claim.
Consider            When deciding an original claim for compensation, or when supplemental
Claimed
Disabilities
                    service treatment records are received following promulgation of an original
                    rating decision, VBA policies require RVSRs to determine service
                    connection for all claimed disabilities, and to consider soliciting a claim for
                    other chronic, unclaimed disabilities noted in the service treatment records.
                    In addition, when preparing written rating decisions, RVSRs must recognize,
                    develop, clarify, and decide all disabilities claimed. The following example
                    highlights how an RVSR failed to consider a veteran’s claimed disability:

                    	 In December 2012, a veteran claimed service connection for
                       hypertension, in addition to numerous other disabilities. In May 2013,
                       the RVSR failed to consider this disability on the rating decision.
                       Therefore, the veteran could have received a higher evaluation had the
                       condition been rated as required. CPS management agreed the RVSR
                       should have considered the claimed hypertension.

Reasons for         CPS staff processed Quick Start claims inaccurately because of insufficient
Inaccuracies        VBA and CPS oversight of claims processing and training on systemic
                    issues. Conflicting guidance related to granting service connection also
                    caused inaccuracies. Specifically, oversight, training, and guidance were
                    lacking in the following areas:

                    	 CPS second-level reviews were ineffective in ensuring claims-processing
                       accuracy
                    	 VBA’s STAR did not include a systematic evaluation of Quick Start
                       claim accuracy
                    	 CPS managers did not analyze trends of quality review or STAR results
                       to identify systemic issues
                    	 CPS managers did not provide staff training on systemic issues identified
                       during quality reviews and STAR
                    	 CPS managers provided improper guidance to grant service connection
                       for claims not linked to military service

Oversight and       During 2011, both CPSs assigned second-level reviewers to perform
Training            oversight of Quick Start claims-processing accuracy. According to managers
                    at one CPS, second-level reviewers did not identify the errors because they
                    had other responsibilities that prevented them from performing
                    comprehensive accuracy reviews.             To strengthen oversight of
                    claims-processing accuracy, the San Diego and Winston-Salem VAROs
                    established Quality Review Teams during the second quarter of FY 2012. At
                    the local VARO level, the Quality Review Teams’ primary responsibility is


VA Office of Inspector General                                                                  15
                                                                  Audit of VBA’s Quick Start Program


                    to review processing accuracy of Quick Start and other types of claims.
                    However, as shown by the 69 percent accuracy rate we estimated for the
                    period April through June 2013, the improvements in accuracy were not as
                    significant as we would have expected after VBA initiated their quality
                    reviews.

                    The STAR Program is VBA’s quality assurance program to ensure veterans
                    and other beneficiaries receive accurate and consistent C&P benefits.
                    However, VBA has not designed STAR to analyze Quick Start claims-
                    processing accuracy systematically. Although STAR reviewed some Quick
                    Start claims for accuracy, STAR’s methodology for selecting claims to
                    review did not ensure a systematic and representative selection of Quick
                    Start claims. Thus, significant increases in claims-processing accuracy have
                    not been realized. Consequently, VBA cannot ensure consistent and
                    adequate oversight of Quick Start claims processing or monitor and report
                    processing accuracy rates.

                    CPS managers ensured staff corrected erroneously processed claims
                    identified by second-level reviewers and STAR, including any necessary
                    adjustments to veterans’ benefits. However, CPS managers missed the
                    opportunity to develop and provide RVSRs training to prevent errors from
                    recurring because they did not trend and analyze the errors.

Conflicting         Another reason for inaccuracies was RVSRs granted service connection for
Guidance            disabilities without sufficient evidence showing the disability directly related
                    to military service. VBA policies state that to grant service connection for a
                    claimed disability, evidence must establish that a veteran incurred an injury
                    or disease resulting in disability coincident with service in the Armed Forces,
                    or if pre-existing such service, was aggravated therein.

                    Managers at both CPSs provided guidance to staff that conflicted with these
                    VBA policies by instructing staff to grant service connection without
                    establishing that claimed disabilities were linked to military service. CPS
                    managers stated they provided this guidance because returning claims to VA
                    medical or contracted C&P examination facilities for medical opinions on
                    service connection would further delay processing.

                    CPS managers also stated they received verbal guidance from a STAR
                    representative to reduce processing delays by proceeding with granting
                    service connection for Quick Start claims without these opinions. However,
                    this guidance conflicts with VBA regulations and STAR guidance
                    specifically noted, “It is not correct to grant service connection solely due to
                    a non-presumptive condition being diagnosed “close” to discharge without a
                    nexus or link.” To ensure consistency among CPSs, VBA central office
                    managers, and STAR guidance, VBA needs to revise policies and procedures
                    to clarify that evidence must establish a nexus linking veterans’ claimed
                    conditions to military service regardless of diagnosis proximity to discharge.


VA Office of Inspector General                                                                   16
                                                               Audit of VBA’s Quick Start Program


Effects of          Inaccurate CPS processing of Quick Start claims resulted in veterans
Inaccurate          receiving inaccurate benefit payments. As a result, we estimated some
Processing
                    veterans were underpaid at least $2.8 million and overpaid at least $463,000
                    from December 2010 through July 2012. Inaccurate CPS Quick Start claims
                    processing also could have potentially affected additional veterans’ present
                    and future benefits. For these claims, we could not determine whether CPSs
                    assigned correct evaluations or whether errors affected veterans’ present or
                    future benefits because claims folders did not contain evidence needed to
                    evaluate claimed conditions.

Conclusion          By strengthening oversight, providing training, and ensuring adherence to
                    VBA policies, VBA will be better positioned to achieve its accuracy targets
                    and improve effectiveness of the Quick Start Program.                While
                    claims-processing timeliness is the main focus of the program,
                    claims-processing accuracy is equally critical to ensure servicemembers
                    experience a smooth transition from DoD’s health care system to VA’s
                    health care and benefits system. Furthermore, as VBA moves towards
                    expanding its Pre-Discharge Program, it will become increasingly important
                    that VBA significantly improve the accuracy of pre-discharge claims
                    processing.

                    Recommendations

                    5.	 We recommended the Under Secretary for Benefits modify Systematic
                        Technical Accuracy Reviews to include a systematic review of claims
                        processed through the Quick Start Program or its successor.
                    6.	 We recommended the Under Secretary for Benefits establish policies and
                        procedures requiring Consolidated Processing Site managers to analyze
                        trends of systemic issues identified during Quality Review Team and
                        Systematic Technical Accuracy Review evaluations of claims processed
                        through the Quick Start Program or its successor.
                    7.	 We recommended the Under Secretary for Benefits establish policies and
                        procedures requiring Consolidated Processing Site managers to provide
                        staff recurring training on systemic issues identified during trend
                        analyses of Quality Review Team and Systematic Technical Accuracy
                        Review results.
                    8.	 We recommended the Under Secretary for Benefits revise policies and
                        procedures to clarify that evidence must establish a nexus linking
                        veterans’ claimed conditions to military service regardless of diagnosis
                        proximity to discharge.
                    9.	 We recommended the Under Secretary for Benefits require Consolidated
                        Processing Site managers to ensure staff adhere to Veterans Benefits
                        Administration policies related to service connection while processing
                        claims received through the Quick Start Program or its successor.



VA Office of Inspector General                                                                17
                                                               Audit of VBA’s Quick Start Program


Management          The Under Secretary concurred with Recommendations 5, 6, 7, and 9. The
Comments            Under Secretary did not concur with Recommendation 8. Specifically, the
and OIG
Response
                    Under Secretary did not concur with the OIG’s assessment that Quick Start
                    claims-processing inaccuracies occurred because of insufficient
                    oversight, training, and conflicting guidance on granting service connection
                    for medical disabilities. The Under Secretary stated the OIG report of
                    accuracy is unreliable because VBA disagreed with 22, or 36 percent,
                    of the errors identified.

                    The Under Secretary also stated Quick Start claims were subject to STAR in
                    the same manner as all other disability compensation claims and were
                    included in the regional office STAR statistically valid random sample. The
                    Under Secretary further stated that in FY 2012, both the San Diego and
                    Winston-Salem Regional Offices established Quality Review Teams and
                    Compensation Service Quality Assurance staff began conducting special
                    focused reviews of Quick Start claims.

                    The Under Secretary’s non-concurrence with our statements that low
                    accuracy rates occurred because of insufficient oversight and training is
                    contradictory to the Under Secretary’s concurrence with Recommendations
                    5, 6, and 7, which address inadequacies in oversight and training. Despite
                    the Under Secretary’s non-concurrence that VBA issued conflicting guidance
                    on granting service connection without medical opinions, audit evidence
                    confirmed that STAR staff did provide guidance that conflicted with VBA
                    policy. Two San Diego CPS managers told the audit team that STAR staff
                    had instructed the CPS to proceed with granting service connection for Quick
                    Start claims without medical opinions even though VBA policy required
                    medical opinions. About 3 months later, a Winston-Salem CPS manager
                    corroborated the San Diego CPS managers’ statements.

                    The OIG’s reported accuracy rates for VBA Quick Start claims processing
                    are accurate. The Under Secretary stated that the OIG report of accuracy is
                    unreliable because VBA disagreed with 22 of the 61 errors identified by the
                    OIG. The Under Secretary is referring to 22 claims where VBA disagreed
                    with OIG accuracy review results before STAR and OIG staff discussed the
                    review results in November 2013. During these discussions, VBA reduced
                    its disagreements by 4 claims and the OIG agreed 5 claims did not have
                    errors, thus reducing the number of claims with disagreements to 13 of
                    56 claims. Appendix D provides additional details about these discussions.
                    OIG and VBA mainly disagreed because of differences in how claims-
                    processing errors are identified. Appendix G, which we added after we
                    received the Under Secretary’s comments, explains these differences and
                    provides details for each of the 13 claims where VBA disagreed with the
                    OIG’s accuracy results.

Recommendation 5 Management Comments: The Under Secretary for Benefits concurred and
                    stated VBA has made revisions to the Quality Assurance Plan to include


VA Office of Inspector General                                                                18
                                                               Audit of VBA’s Quick Start Program


                    special focused reviews of Quick Start claims that are identified by a third
                    digit modifier of seven. These reviews will take place bi-annually each June
                    and December. VBA requested closure of this recommendation.
                    OIG Response: VBA’s planned actions generally meet the intent of OIG’s
                    recommendation. However, considering the significance of OIG’s timeliness
                    and accuracy findings, we believe VBA needs to perform its planned special
                    focused reviews of Quick Start claims quarterly instead of bi-annually. To
                    close this recommendation, VBA needs to provide OIG the results of
                    quarterly reviews by April 30, 2015.

Recommendation 6    Management Comments: The Under Secretary for Benefits concurred and
                    stated that beginning in January 2014, the results of STAR Quick Start claim
                    reviews were included in VBA’s regularly scheduled quarterly error analysis
                    reports and shared with CPS managers. The Under Secretary also stated
                    VBA implemented local Quality Review Teams in March 2012, which
                    communicate findings with CPS managers for analysis of trends. VBA
                    requested closure of this recommendation.

                    OIG Response: VBA’s planned actions meet the intent of OIG’s
                    recommendation. To close this recommendation, VBA needs to provide
                    OIG its trend analysis of systemic issues identified during STAR and Quality
                    Review Team reviews. OIG requests VBA provide this information by
                    April 30, 2015.

Recommendation 7    Management Comments: The Under Secretary for Benefits concurred and
                    stated STAR and Quality Review Team results will be used to provide local
                    training. VBA requested closure of this recommendation.

                    OIG Response: VBA’s planned actions generally meet the intent of OIG’s
                    recommendation. However, the planned actions do not specify how often
                    CPS staff will receive the training. To close this recommendation, VBA
                    needs to establish policies on how frequently CPS staff will receive the
                    training and provide OIG a summary of training completed. OIG requests
                    VBA provide documentation of these actions by April 30, 2015.

Recommendation 8    Management Comments: The Under Secretary for Benefits did not concur
                    and stated the rules for the establishment of a nexus linking a Veteran’s
                    claimed conditions to service are already published in 38 Code of Federal
                    Regulations (C.F.R.) 3.303 and 3.159. The Under Secretary noted that there
                    are no separate evidentiary standards that have been established for Quick
                    Start claims and that a nexus between the current disability and military
                    service must be shown for all conditions. The Under Secretary also cited
                    38 C.F.R 3.159(c)(4)(ii) stating that a medical opinion is not necessary if
                    there is “competent evidence showing post-service treatment for a condition,
                    or other possible association with military service.”




VA Office of Inspector General                                                                19
                                                                 Audit of VBA’s Quick Start Program


                    OIG Response: OIG acknowledges VBA’s non-concurrence, but maintains
                    38 C.F.R. 3.159(c)(4) outlines the elements for determining if a medical
                    examination or medical opinion is necessary. One requirement for this
                    determination is that the information and evidence of record indicates the
                    claimed disability or symptoms may be associated with an established event,
                    injury, or disease in service or with another service-connected disability.
                    38 C.F.R. 3.159(c)(4)(ii) states that this requirement could be satisfied by
                    competent evidence showing post-service treatment for a condition, or other
                    possible association with military service. VBA incorrectly cites this
                    provision as support for not needing a medical opinion, when it actually
                    describes when a medical examination or medical opinion is necessary.

                    Our audit found inconsistencies between statements made by CPS managers,
                    STAR staff and managers, and C&P program managers regarding
                    requirements on considering diagnosis proximity to discharge when
                    establishing a nexus linking veteran’s claimed conditions to military service.
                    This clearly demonstrates a need to clarify VBA policies and procedures for
                    claims processing staff and reduce these types of errors. VBA needs to
                    provide revised policies and procedures clarifying that evidence must
                    establish a nexus regardless of diagnosis proximity to discharge.

Recommendation 9    Management Comments: The Under Secretary for Benefits concurred and
                    stated revisions to VBA’s Quality Assurance Plan, including special focused
                    reviews of Quick Start claims, will help ensure staff members adhere to VBA
                    policies related to service connection. VBA requested closure of this
                    recommendation.

                    OIG Response: VBA’s planned actions meet the intent of OIG’s
                    recommendation. To close this recommendation, VBA needs to provide its
                    revised Quality Assurance Plan and the results of its quarterly special
                    focused reviews of Quick Start claims. OIG requests VBA provides this
                    information by April 30, 2015.
                    We will monitor implementation of these actions and will close the
                    recommendations when we receive sufficient documentation demonstrating
                    VBA progress in addressing the issues identified. The Under Secretary for
                    Benefits also provided technical comments on the OIG’s draft report.
                    Appendix E includes the full text of the Under Secretary’s comments and
                    Appendix F provides the OIG’s response to the technical comments.




VA Office of Inspector General                                                                  20
                                                                 Audit of VBA’s Quick Start Program


Appendix A          Background

Pre-Discharge       VBA’s Pre-Discharge Program includes three other components besides
Program             Quick Start—BDD, Very Seriously Ill/Seriously Ill, and the Integrated
Components
                    Disability Evaluation System.      Every component helps to provide
                    servicemembers a seamless transition from DoD’s health care system into
                    the VA medical and benefits system. However, each component has unique
                    requirements for servicemember participation.

Benefits            To file BDD claims, servicemembers must complete all required medical
Delivery at         examinations in the geographical area where they are serving and submit
Discharge
                    their claims 60 to 180 days prior to DoD discharge from military service.
                    Similar to Quick Start claims, servicemembers file BDD claims with intake
                    sites located at DoD and VA facilities. Intake sites transfer BDD claims to
                    Rating Activity Sites colocated with the Salt Lake City and Winston-Salem
                    VAROs.

Very Seriously      To file Very Seriously Ill/Seriously Ill claims, servicemembers must be
Ill/Seriously Ill   considered for discharge from military service because of an injury or illness.
                    All veterans with DoD classification codes of very seriously injured,
                    seriously injured, or a special category involving an amputation, may also
                    submit Very Seriously Ill/Seriously Ill claims. Typically, Operation
                    Enduring Freedom/Operation Iraqi Freedom servicemembers submit Very
                    Seriously Ill/Seriously Ill claims. VAROs with jurisdiction over the location
                    where the servicemember will reside after discharge process these claims.

Integrated          The DoD/VBA Integrated Disability Evaluation System determines if
Disability          servicemembers are unfit for duty. If servicemembers are medically unfit for
Evaluation
System
                    duty, the Integrated Disability Evaluation System proposes VA disability
                    ratings and VA Military Service Coordinators help servicemembers submit
                    their disability benefit claims prior to discharge from military service.

                    The Integrated Disability Evaluation System emphasizes simplifying the
                    evaluation process by providing servicemembers comprehensive medical
                    examinations and disability evaluations. VBA completes all Integrated
                    Disability Evaluation System rating activities at Disability Rating Activity
                    Sites in Seattle, WA; Baltimore, MD; and Providence, RI.

Phases of           Quick Start claims processing includes six distinct phases. Each phase
Claims              represents an explicit time period and includes specific claims-processing
Processing
                    actions. CPS staff must complete each claims-processing action promptly
                    and accurately to accomplish the Quick Start Program mission effectively.




VA Office of Inspector General                                                                  21
                                                                  Audit of VBA’s Quick Start Program


                    Table 4 provides descriptions of each phase and examples of actions
                    completed during each phase.

                         Table 4. Description of Each Phase of the Quick Start Program’s 

                                                  Claims Process 


                          Phase                                Description
                                       From date claim is received to date of claim
                                       establishment. Staff establish the claim by date
                      Establishment    stamping the claim, determining the type of claim, and
                                       recording the claim date in VBA’s claims tracking
                                       system.

                                       From date of claim establishment to date of first
                                       evidence request. Staff request a C&P examination and
                                       prepare a Veterans Claims Assistance Act letter
                      Development
                                       requesting applicable evidence, such as service
                      Initiation
                                       treatment records, private medical records, and
                                       verification of service.

                                       From date of first evidence request to date claim is
                      Evidence         made ready to rate. Staff follow up on evidence
                      Gathering        requests and review received evidence to ensure claim
                                       is ready to rate.

                                       From date claim is made ready to rate to date of rating
                      Rating           decision. Staff evaluate claim evidence and prepare a
                                       rating decision.

                                       From date of rating decision to date decision letter is
                      Award            printed. Staff prepare decision letter and calculate
                                       benefit amount if service connection is awarded.

                                       From date decision letter is printed to date decision
                                       notification letter is released. Staff mail decision
                      Authorization    notification letter and clear claim in VBA’s claims
                                       tracking system, which automatically records claim
                                       completion date.

                      Source: VBA Manual M21-1 & M21-4, Office of Performance Analysis and Integrity
                      Web site, and Fast Letter 09-31




VA Office of Inspector General                                                                    22
                                                                       Audit of VBA’s Quick Start Program


Appendix B          Scope and Methodology

Scope               We conducted our audit work from March 2012 through February 2014. The
                    audit focused on VBA’s timeliness and accuracy of processing about
                    19,900 Quick Start claims completed during calendar year 2011, and about
                    6,400 Quick Start claims completed during the period of April 1 through
                    June 26, 2013.4 We excluded claims located at VAROs outside the
                    continental United States and claims completed by other VBA stations
                    instead of CPSs.

                    We visited VBA’s two CPSs collocated with the San Diego and
                    Winston-Salem VAROs and the Pittsburgh VARO intake site. Audit
                    evidence obtained from the CPSs included interviews, management reports
                    and records, observations, and sampled claims folders. We compared the
                    results from 2011 with those from 2013 to determine if VBA’s timeliness
                    and accuracy of claims processing improved during this period. This
                    comparison was necessary to provide VBA with sufficient time to fully
                    assess the performance of the program.

Methodology         To accomplish the audit objective, we reviewed applicable laws and VBA
                    regulations, policies, procedures, and guidelines related to the Quick Start
                    Program. We interviewed managers and staff from VBA’s Compensation
                    Service, Office of Field Operations, and Office of Performance
                    Analysis and Integrity. During the two CPS site visits we:

                    	 Interviewed VARO and CPS management and claims-processing staff,
                       including Veterans Service Center managers, coaches, RVSRs, veterans
                       service representatives, claims assistants, and quality review team
                       members
                    	 Reviewed workload management plans, systematic analyses of
                       operations, manager and staff performance plans, FTE allocations and
                       levels, and claims assistants and veterans service representatives training
                       records
                    	 Observed CPS mailroom operations and reviewed 65 incoming claims
                       located in the mailroom to assess claims assistants’ ability to identify and
                       forward Quick Start claims to appropriate staff for further processing
                    	 Evaluated timeliness and accuracy of claims processing for 160 sampled
                       Quick Start claims (89 at San Diego CPS and 71 at Winston-Salem CPS)

                    For each sampled claim, we reviewed claims folders and information
                    recorded in VBA’s automated workload management systems.       We

                    4
                     We did not include Quick Start claims completed during June 27–29, 2013, because the
                    population of these claims was not available from VOR at the time we selected the sample.
                    No Quick Start claims were completed on June 30, 2013.


VA Office of Inspector General                                                                            23
                                                                Audit of VBA’s Quick Start Program


                    complemented the audit team with OIG Benefits Inspectors to augment the
                    technical expertise needed to draw conclusions on the accuracy of payments.

                    At the Pittsburgh VARO, we interviewed management staff and reviewed
                    claims assistants’ training records. We also reviewed 103 claims to assess
                    the accuracy of intake site identification of Quick Start claims. Of the
                    103 claims, we statistically selected 78 from the population of claims
                    completed by the Pittsburgh VARO during 2011, and we selected
                    25 incoming claims located in the mailroom. Appendix C provides
                    additional details on the statistical sampling methodology.

Fraud               We assessed the risk of fraud, violations of legal and regulatory
Assessment          requirements, and abuse. We developed specific audit steps to identify
                    potentially fraudulent Quick Start claims, including trying to detect altered
                    Certificates of Release or Discharge from Active Duty and unverified
                    military service. We also reviewed and assessed the accuracy of awarded
                    monetary benefits. We exercised due diligence in staying alert to any
                    indications of fraud and abuse. We did not identify any instances of fraud or
                    abuse.

Data Reliability    We assessed the reliability of VOR data by comparing electronic data with
                    hard copy documentation in claims folders for claim and discharge dates and
                    the veteran’s name and social security number. We determined the VOR
                    data were sufficiently reliable to accomplish the audit objective.

                    We also assessed the reliability of VOR’s reported population of Quick Start
                    claims completed during 2011 and during the period of April through June
                    2013. We determined the population was not sufficiently reliable for the
                    audit objective because VOR reported Quick Start claims incorrectly as
                    non-Quick Start claims and non-Quick Start claims incorrectly as Quick Start
                    claims. Consequently, we did not rely on the VOR population of Quick Start
                    claims and instead estimated the population based on our audit results of
                    sampled claims.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objective. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                 24
                                                                 Audit of VBA’s Quick Start Program


Appendix C          Statistical Sampling Methodology

Approach            To evaluate the effectiveness of VBA’s Quick Start Program to process
                    claims timely and accurately, we reviewed a representative sample of Quick
                    Start claims to quantify claims-processing days and rating inaccuracies. We
                    also used statistical sampling to estimate the quantity and value of inaccurate
                    benefit payments to veterans.

                    We determined the amount of time claim benefit payments were delayed by
                    analyzing claims-processing delays within CPS control that were between
                    completion of one processing action and the beginning of a subsequent
                    action. We considered claim ratings inaccurate if CPS staff incorrectly
                    assessed severity level of disabilities, improperly denied or granted medical
                    conditions, or based rating decisions on inadequate C&P examination
                    reports. We discussed our results with CPS supervisors.

Populations         We selected samples from two populations of completed Quick Start
                    claims—one from calendar year 2011 and one from the period of April
                    through June 2013. During 2011, VBA reported a population of about
                    21,800 Quick Start claims completed. From the 21,800 total population, we
                    subtracted approximately 490 claims located at VAROs outside the
                    continental United States and about 380 claims completed by other VBA
                    stations instead of CPSs reducing the population to approximately
                    20,930 claims. However, we determined VBA’s population was unreliable
                    because it included non-Quick Start claims. Therefore, we estimated a
                    population of just nearly 19,900 claims.

                    From April through June 2013, VBA reported a population of about
                    7,700 Quick Start claims completed. We reduced the population to
                    approximately 7,000 by excluding about 580 claims completed by other
                    VBA stations instead of CPSs, and approximately 110 claims located at
                    VAROs outside the continental United States. Because we determined
                    VBA’s reported population for this time period was unreliable, we estimated
                    a population of about 6,400 claims based on our audit of sampled claims.

Sampling            We selected a simple random sample of claims from both populations. For
Design              the 2011 population, we stratified the sample into two strata—one for claims
                    completed by the San Diego CPS and one for claims completed by the
                    Winston-Salem CPS. Using proportional allocation, we selected a sample of
                    100 claims—59 from the San Diego CPS population and 41 from the
                    Winston-Salem CPS population. For the 2013 population, we followed the
                    same sampling design except we did not use proportional allocation and
                    instead selected 30 claims from each stratum for a total of 60 sampled
                    claims. We used a random number generator to identify claims for inclusion
                    in the sample. This method ensured that if additional samples became
                    necessary, we would select them in random order.



VA Office of Inspector General                                                                  25
                                                                        Audit of VBA’s Quick Start Program


Projections         We calculated estimates in this report using weighted sample data. We
and Margins of      computed sampling weights by taking the product of the inverse of the
Error
                    probabilities of selection at each stage of sampling. We used WesVar
                    software to calculate population estimates and associated sampling errors.
                    WesVar employs replication methodology to calculate margins of error and
                    confidence intervals that correctly account for the complexity of the sample
                    design.

                    Margins of error and confidence intervals are indicators of estimates
                    precision. If we repeated this audit with multiple samples, the confidence
                    intervals would differ for each sample, but would include the true population
                    value 90 percent of the time. For example, in Table 5, we are 90 percent
                    confident the true population of Quick Start claims for 2011 was between
                    about 19,180 and 20,620. For each estimate, we used the mid-point or lower
                    limit of the 90 percent confidence interval projections. Table 5 shows the
                    sample size and projections related to timeliness in 2011.

                         Table 5. Timeliness Projections for Quick Start Program Claims 

                                             Processing for FY 2013 

                                                                               90% Confidence
                                                                    Margin        Interval
                                                           Mid                                        Sample
                                 Descriptions                         of
                                                           Point               Lower         Upper     Size
                                                                    Error
                                                                               Limit         Limit
                      Claims Population                   19,900        720     19,180       20,620    100
                      Average Total Days                     291         20        271         311     100
                      Average Days Before Discharge            41         5         37          46     100
                      Average Days After Discharge           250         19        231         269     100
                      Average Delay Months                      7        0.6        6.5         7.6     99
                      Benefits Payments Experiencing
                      Delays ($ in Millions)               $88.0      $22.2      $65.8       $110.2     99
                      Development Initiation Phase
                      Average Total Days                       55        12         43          67     100
                      Evidence Gathering Phase
                      Average Total Days                     148         15        133         163     100
                      Rating Phase
                      Average Total Days                      71          12         59         83     100
                      Source: VA OIG statistical analysis of Quick Start claims processing




VA Office of Inspector General                                                                               26
                                                                        Audit of VBA’s Quick Start Program


                    Table 6 shows the sample size and projections related to timeliness during
                    the period of April through June 2013.

                      Table 6. Timeliness Projections for the Quick Start Program’s Claims 

                                    Processing for April through June 2013 

                                                                               90% Confidence
                                                                    Margin        Interval
                                                           Mid                                        Sample
                                 Descriptions                         of
                                                           Point               Lower         Upper     Size
                                                                    Error
                                                                               Limit         Limit
                      Claims Population                    6,400        420      5,980        6,820     60
                      Average Total Days                     249         27        222         277      60
                      Average Days Before Discharge            57         8         49          65      60
                      Average Days After Discharge           192         27        166         219      60
                      Average Delays Months                   3.8        0.6        3.3         4.3     58
                      Benefits Payments Experiencing
                      Delays ($ in Millions)               $20.5       $5.2      $15.3        $25.7     58
                      Development Initiation Phase
                      Average Total Days                       37        10         26          47      60
                      Evidence Gathering Phase
                      Average Total Days                     125         18        107         143      60
                      Rating Phase
                      Average Total Days                      70          22         48         93      60
                      Source: VA OIG statistical analysis of Quick Start claims processing

                    We also projected sample results related to claims-processing accuracy.
                    Accuracy errors were instances where CPSs did not process medical
                    disability compensation claims in accordance with VBA policies and
                    procedures. If claims folders included sufficient evidence to evaluate
                    claimed conditions properly and errors affected veterans’ monthly benefits,
                    we projected the amount of underpayments or overpayments. Otherwise, we
                    projected the number of claims with potential to impact veterans’ benefits.

                    Similar to our timeliness projections, if we repeated this audit with multiple
                    samples, the confidence intervals for our accuracy review would differ for
                    each sample, but would include the true population value 90 percent of the
                    time. For example, in Table 7 on the next page, we are 90 percent confident
                    the percentage of Quick Start claims in 2011 without errors is between
                    53.9 and 70.1 percent. For each estimate, we used the mid-point or lower
                    limit of the 90 percent confidence interval projections.




VA Office of Inspector General                                                                               27
                                                                         Audit of VBA’s Quick Start Program


                    Table 7 on the next page, shows the sample size and projections related to
                    the accuracy of claims processing for 2011.

                        Table 7. Accuracy Projects for the Quick Start Program’s Claims 

                                            Processing for FY 2013 

                                                                                    90% Confidence
                                                                         Margin        Interval
                                                                Mid-                                     Sample
                                 Descriptions                             of
                                                                Point                Lower     Upper      Size
                                                                         Error
                                                                                     Limit     Limit
                   Percent With Errors                          38.0%       8.1%      29.9%     46.2%        38
                   Percent Without Errors                       62.0%       8.1%      53.9%     70.1%        62
                   Percent Without Impact Errors                86.9%       5.6%      81.4%     92.5%        87
                   Percent Without Potential Impact Errors      70.0%       7.7%      62.3%     77.7%        70
                   Incorrect Benefit Payments
                   Underpayments ($ in Millions)                  $8.1       $5.2      $2.8*     $13.3       38
                   Overpayments ($ in Millions)                   $2.6       $2.1      $0.5*      $4.7       38
                   Source: VA OIG statistical analysis of Quick Start claims processing
                  *For these projections, because the confidence interval was 30 percent or more of the midpoint
                   of the interval, we used the lower limit projections.

                    Table 8 shows the sample size and projections related to accuracy during the
                    period of April through June 2013.

                       Table 8. Accuracy Projection for the Quick Start Program’s Claims 

                                    Processing for April through June 2013 


                                                                                    90% Confidence
                                                                         Margin        Interval
                                                                Mid-                                     Sample
                                 Descriptions                             of
                                                                Point                Lower     Upper      Size
                                                                         Error
                                                                                     Limit     Limit
                   Percent With Errors                          30.7%      10.3%      20.3%     41.0%        18
                   Percent Without Errors                       69.3%      10.3%      59.0%     79.7%        42
                   Percent Without Impact Errors                92.0%       5.9%      86.1%     97.9%        55
                   Percent Without Potential Impact Errors      75.4%       9.7%      65.7%     85.1%        46
                       Source: VA OIG statistical analysis of Quick Start claims processing

                       Note: We did not include projections for underpayments and overpayments in Table 8
                       because the confidence interval was 30 percent or more of the midpoint of the interval and
                       lower limit projections were insignificant.




VA Office of Inspector General                                                                                28
                                                                  Audit of VBA’s Quick Start Program


Appendix D 	 VBA and OIG Discussions Related to Quick Start
             Claims-Processing Inaccuracies

                    The OIG’s audit concluded that CPS staff inaccurately processed 56 of
                    160 Quick Start claims. We provided the results for the 56 inaccurately
                    processed claims to CPS officials and VBA STAR staff. Discussions related
                    to the inaccuracies for these claims are summarized below.

Discussions         Officials in the San Diego CPS did not concur that two of the inaccurately
With CPSs           processed claims were errors as management felt the proximity of the initial
                    diagnoses for the conditions after the veterans’ discharge warranted granting
                    the condition. However, management at the Winston-Salem CPS did concur
                    with similar errors. VBA program officials did not agree that the San Diego
                    or Winston-Salem CPS claims were erroneous and stated they considered
                    these claims correctly processed based on their interpretation of VBA policy.
                    In spite of VBA policy, and despite no evidence linking the veterans’
                    claimed disabilities to military service, VBA program officials felt
                    reasonable doubt should be resolved in favor of claimants.

                    We disagreed with VBA because the evidence for these claims did not show
                    the veterans’ claimed conditions incurred coincident with service as required
                    by VA policy. VBA officials’ interpretation of policy is that the close
                    proximity of diagnoses after military service discharge dates serves as
                    evidence of a disability incurring coincident with service. This interpretation
                    conflicts with VBA regulations and STAR guidance. STAR guidance
                    specifically notes, “It is not correct to grant service connection solely due to
                    a non-presumptive condition being diagnosed “close” to discharge without a
                    nexus or link.”

                    On April 10, 2013, VBA added the court case of King v. Shinseki to the
                    Index of Court Cases and Decision Assessment Document Cases. This
                    decision clarified that VA staff may use lay evidence from a claimant to
                    establish a medical condition, including the nexus or link. Because of this
                    court decision, we decided to remove one of the two previously identified
                    San Diego CPS errors where the claim file showed lay evidence establishing
                    the nexus.

                    However, we did not remove identified errors that did not show lay evidence
                    establishing a nexus, because VBA regulations still do not warrant granting
                    service connection solely due to a diagnosis close to a veteran’s discharge
                    from military service. Considering the King v. Shinseki case and the
                    inconsistency among CPSs and VBA managers, VBA must provide clearer
                    guidelines to CPS and management staff that evidence must establish a
                    nexus linking veterans’ claimed conditions to military service regardless of
                    diagnosis proximity to discharge. Recommendation 8 in this report
                    addresses this issue.



VA Office of Inspector General                                                                   29
                                                               Audit of VBA’s Quick Start Program


Discussions         For 43 of the 56 claims, VBA’s STAR staff agreed with the audit
With STAR           conclusions. For the remaining 13 claims, STAR staff and the OIG could
                    not come to agreement. However, for 2 of the 13 claims, STAR staff agreed
                    they were procedurally flawed, but still disagreed with the OIG’s findings.
                    OIG and STAR mainly disagreed because the OIG’s claims-processing
                    accuracy review methodology differs from STAR’s review process.
                    Appendix G provides details on VBA and OIG disagreements on
                    claims-processing inaccuracies.




VA Office of Inspector General                                                                30
                                                                            Audit of VBA’s Quick Start Program


Appendix E            Under Secretary for Benefits Comments



                 Department of
                 Veterans Affairs
                                                             Memorandum
         Date:     April 8, 2014
         From:     Under Secretary for Benefits (20)

         Subj:     OIG Draft Report—Audit of VBA’s Quick Start Program [Project Number 2012-
                   00177-R3-0011]—VAIQQ 7363520

           To:     Assistant Inspector General for Audits and Evaluations (52)


                    1. Attached is VBA’s response to the OIG’s Draft Report: Audit of VBA’s Quick
                       Start Program.

                    2. Questions may be referred to Christine Ras, Program Analyst, at 461-9057.




                   Attachments




VA Office of Inspector General                                                                             31
                                                                      Audit of VBA’s Quick Start Program


                                                                                               Attachment

                                 Veterans Benefits Administration (VBA)

                                     Comments on OIG Draft Report

                                   Audit of VBA’s Quick Start Program


The Veterans Benefits Administration provides the following general comments:

VBA has worked diligently to address the challenges associated with an increasing number of disability
claims filed by our Nation’s veterans. The challenges are significant and often result from factors outside
VBA’s control. The OIG draft report states that the delay in processing Quick Start claims occurred
because VBA lacked adequate program controls. It also states that claims accuracy is diminished by
insufficient oversight and training, as well as by conflicting guidance on granting service connection. VBA
non-concurs with both of these conclusions.

Timeliness of Quick Start Claims Processing

VBA non-concurs with OIG’s finding that timeliness and backlog issues are the result of inadequate
program controls. The backlog of disability claims, including pre-discharge claims, is primarily the result
of VBA initiatives to increase outreach and access for servicemembers and veterans; increased use of
technology and social media by veterans and their families to learn about available benefits and services;
increased demands for compensation as a result of twelve years at war and an aging population of
previous-era veterans; and VA efforts to provide long-awaited benefits to Vietnam veterans exposed to
Agent Orange by creating additional presumptive diseases.

	   Impact of Agent Orange Exposure-Related Compensation: Significantly impacting all areas of claims
     processing in 2011 through 2013 was the addition of ischemic heart disease, Parkinson’s disease,
     and B-cell leukemias to the list of Agent Orange-associated presumptive diseases in August 2010.
     Prioritizing the processing of claims for the three new presumptive conditions was clearly the right
     thing to do for these Vietnam veterans and their survivors, many of whom had waited years to receive
     their earned benefits. Claims for these disabilities fell under the Nehmer court case, which mandates
     VA review previously decided claims for these conditions back to 1985 for possible service
     connection. VA allotted significant resources to processing over 260,000 Agent Orange related
     claims received in 2011, requiring 13 VA centers to exclusively devote personnel to 90,000 Nehmer
     claims. This created residual impact on overall claims processing timeliness, including Quick Start
     claims, into 2012 and 2013.

	 Improvements in Quick Start Timeliness: VBA’s Transformation initiatives have resulted in steady
   improvement in the timeliness of claims processing that is evident in the data for Quick Start claims.
   Beginning in 2013, VBA began a major effort focused on Quick Start claims and has achieved major
   reductions in the Quick Start inventory, reducing the number of Quick Start claims pending from
   18,420 as of October 2012, to 7,214 as of March 29, 2014 – a reduction of 61 percent. Timeliness
   improvements are also reflected in the reduction of 178 days of average processing time for Quick
   Start claims – from 337 days in July 2012 to 159 days currently. Similar improvement is shown in the
   average days pending for Quick Start claims – from 236 days in May 2012 to 105 days as of March
   29, 2014.

Accuracy of Quick Start Claims Processing

VBA non-concurs with OIG’s assessment that accuracy of Quick Start claims was 69 percent for 2013
and that accuracy suffers from insufficient oversight and training. VBA further non-concurs with OIG’s
conclusion that it issued conflicting guidance on granting service connection for medical disabilities in
Quick Start claims. VBA reviewed 61 cases where OIG cited accuracy errors. Of the 61 error citations,
VBA disagreed with 22, or 36 percent, of the errors identified. Based on this VBA finding, the OIG report
of accuracy is unreliable.



VA Office of Inspector General                                                                          32
                                                                     Audit of VBA’s Quick Start Program


VBA has continually monitored claims decision accuracy and has provided substantial training and
oversight for claims processing personnel. The Quick Start Pre-Discharge Program was fully
implemented during the first quarter of fiscal year (FY) 2010. Once the logistics of the program were in
place, Quick Start claims were subject to Systematic Technical Accuracy Review (STAR) in the same
manner as all other disability compensation claims. As with Benefits Delivery at Discharge claims, Quick
Start claims were included in the regional office STAR statistically valid random sample. During FY 2012,
with the implementation of the Transformation initiative Quality Review Teams (QRTs), both the San
Diego and Winston-Salem Regional Offices established QRTs for the Quick Start Pre-Discharge
Program. The Quality Review Teams’ sole responsibility is to review processing accuracy of Quick Start
claims. In addition, the Compensation Service Quality Assurance Staff began conducting special focused
reviews of Quick Start claims.

VBA provides the following technical comments:

Page 1, paragraph 4, line 6:
“In response, VBA officials indicated they are considering combining the stand-alone Quick Start and
Benefits Delivery at Discharge (BDD) Programs into one new program that allows servicemembers to file
claims during TAP briefings up to 1 year prior to discharge.”

     VBA Comment: VBA requests that OIG remove the reference to allowing servicemembers to file
     claims during TAP briefings up to 1 year prior to discharge. There is no change in the requirement
     that servicemembers be within 180 days of separation to participate in VBA’s Pre-Discharge
     Programs.

Page 2, paragraph 4:
“VBA improved its ADTC by reducing after discharge processing days from 250 days in 2011 to 192 days
for the period April through June 2013. However, the before-discharge processing days increased from
41 days to 57 days for the same period. The evidence-gathering phase alone averaged 125 days or the
same as the Secretary’s 125 day average target for completing all phases of claims processing.”

     VBA Comment: VBA non-concurs with this finding, as it is unclear, misleading, and has no relation
     whatsoever to claim processing timeliness. The length of this period of time prior to separation is
     completely at the discretion of the servicemember. Generally, Quick Start allows servicemembers to
     file a claim anytime within the last 180 days on active duty. The fact that “before-discharge
     processing days” increased is a direct reflection of the point in time at which servicemembers
     elected to file their claims.

Page 5, paragraph 1, line 1:
“In addition, intake site and CPS staff use VOR to determine when to perform required claims-processing
actions, such as requesting C&P examinations and shipping claims to examination facilities.”

     VBA Comment: VBA non-concurs with this statement. The actions of intake sites and consolidated
     processing sites (CPSs) are governed by published program procedures, which provide that
     examinations should be requested within five days of receipt of the claim and also provide guidance
     with respect to the shipment of folders to scanning facilities. The VETSNET Operations Report
     (VOR) is not used to determine when to perform these activities.

Page 5, paragraph 2, line 1:
“However, VOR does not track pending days for individual Quick Start claims from the date VBA receives
and establishes active servicemembers’ claims to the date DoD discharges servicemembers. Therefore,
CPS staff did not have this VOR information available to identify and process the oldest pending Quick
Start claims first.”




VA Office of Inspector General                                                                        33
                                                                      Audit of VBA’s Quick Start Program


     VBA Comment: VBA non-concurs with this statement. An active duty servicemember does not
     have “status” or eligibility to receive VA disability compensation benefits. It is not until the day
     following separation from service that a veteran becomes eligible to receive compensation.
     Timeliness can only be measured beginning when a claimant achieves veteran status and has basic
     eligibility for a benefit. Similarly, when prioritizing workload based on oldest pending claims,
     workload is prioritized based on those waiting longest from the date of claim or separation from
     service, whichever is latest.

Page 5, paragraph 2, line 6:
“According to a Quick Start Program official, VBA is considering extending this period to 1 year.
Extending the length of time before discharge to allow servicemembers to submit claims makes it even
more critical VOR has the capability to track Quick Start claims prior to discharge.”

     VBA Comment:      VBA requests this statement be deleted.       Extending this period is not under
     consideration.

Page 5, paragraph 4, line 1:
“VBA executives contend that pre-discharge claims-processing time should not be included in timeliness
performance measures because some pre-discharge claims-processing activities are outside VBA’s
control, such as the time VA facilities take to schedule and complete medical examinations.”

     VBA Comment: VBA non-concurs with this statement, as it is inaccurate. VBA’s rationale for not
     including pre-separation days in processing time is two-fold. First, as a matter of law and as
     explained above, an active duty servicemember does not have veteran status and is therefore, not
     eligible to receive VA disability compensation benefits. Second, a pre-discharge claim that is fully
     developed prior to separation from active duty cannot be decided or promulgated until after
     separation, when veteran status is attained. To include time waiting for a servicemember to
     separate and attain veteran status would not provide an accurate measure of VBA’s claims
     processing timeliness.

Page 12, paragraph 4, line 4:
“VBA’s Systematic Technical Accuracy Review (STAR) staff did not agree that the rating specialist should
have denied the veteran’s claim, despite the lack of written policy showing service connection is
warranted for a condition with no residuals. However, VBA’s STAR staff agreed VBA did not have a
written policy that would support the granting of this claim.”

     VBA Comment: VBA requests that OIG add that service connection was granted at 0 percent
     disabling. Additionally, policy guidance was issued for this scenario in the Compensation Service
     Bulletin, November 2013 addendum (Attachment A).

Page 13, paragraph 1, line 3:
“VBA’s STAR staff reviewed the claim in November 2013 and agreed the rating specialist should not
have denied the veteran’s claim without receiving an adequate C&P medical examination.”

     VBA Comment: VBA does not concur with this statement, as VBA’s STAR staff did not agree with
     OIG’s finding that the rating specialist should have granted the veteran’s claim for a left shoulder
     disability. VBA maintains there is no benefit entitlement error associated with the denial of service
     connection for the left shoulder because:
      The evidence of record was sufficient to make a decision on this claim once the examiner
         clarified that he had transposed the left and right shoulder in error. No further information was
         needed to make a decision. In the absence of a left shoulder condition shown in the service
         treatment records and the normal left shoulder exam in March 2012, the decision to deny
         service connection for left shoulder osteoarthritis is supported by the evidence of record.



VA Office of Inspector General                                                                         34
                                                                        Audit of VBA’s Quick Start Program


Page 15, paragraph 1, line 4:
“To ensure consistency among CPSs, VBA central office managers, and STAR guidance, VBA needs to
revise policies and procedures to clarify that evidence must establish a nexus linking veterans’ claimed
conditions to military service regardless of diagnosis proximity to discharge.”

     VBA Comment: VBA non-concurs with this conclusion. The issue of proximity must not be
     disregarded altogether. Rather, it is one factor of many, considered together with the evidence of
     record to establish a nexus. VA’s regulations, 38 Code of Federal Regulations (C.F.R.) § 3.303 and
     § 3.159, sufficiently establish the rules for consideration of this important issue. These regulations
     together confirm service connection may be granted for any disease diagnosed after discharge,
     when all the evidence, including that pertinent to service, establishes that the disease/condition was
     incurred in service. Since Quick Start claims are submitted while the servicemember is still on
     active duty, most times he/she does not have the benefit of an in-service exam. Therefore, these
     regulations are applied when granting service connection.

Page 17, paragraph 2, line 4:
“Similar to Quick Start claims, servicemembers file BDD claims at DoD and VA intake sites.”

     VBA Comment: VA has intake sites on military installations; however, the Department of Defense
     does not have intake sites.

Page 17, paragraph 3, line 1:
“To file Very Seriously Ill/Seriously Ill claims, servicemembers must be discharged from military service
because of an injury or illness.”

     VBA Comment: Very Seriously Ill/Seriously Ill (VSI/SI) are Department of Defense classifications
     and have no bearing on filing a claim. VA begins processing VSI/SI claims prior to separation. It is
     not required that a VSI/SI servicemember be separated from military service because of an injury or
     illness.

Page 18, Table 4, Row 2:

“(Development Initiation:) From date of claim establishment to date of first evidence request. Staff
request a C&P examination and prepare a Veterans Claims Assistance Act letter requesting applicable
evidence, such as service treatment records, private medical records, and verification of service.”

     VBA Comment: The request for service treatment records and verification of service do not occur
     during the development initiation phase. With pre-discharge claims, servicemembers provide
     service treatment records with their initial application. Verification of service is not requested until
     after the member separates.




VA Office of Inspector General                                                                            35
                                                                      Audit of VBA’s Quick Start Program


The following comments are submitted in response to the recommendations in the OIG draft
report:

Recommendation 1: We recommend the Under Secretary for Benefits establish Veterans Service
Network Operations Report capabilities to track claims from the date the Veterans Benefits Administration
receives and establishes active servicemembers’ claims to the date of Servicemembers’ discharge from
military service.

     VBA Response: Non-concur. An additional VETSNET Operations Report to track the date of
     receipt of the claim to the date of the servicemember’s discharge is not needed. Current VETSNET
     Future Claim Diary reports track the date an intake site establishes a claim (within seven calendar
     days of receipt, per M21-MR III.ii.1.B.5.b), and the date following the servicemember’s separation
     from military service (the first date a veteran is eligible for benefits), as well as development
     progress, which is monitored by the suspense dates and reasons also captured in these reports.
     This report is utilized for local workload management purposes.

Recommendation 2:         We recommend the Under Secretary for Benefits track and report
claims-processing time prior to Servicemembers’ discharge in timeliness performance results for the
Quick Start Program or its successor.

     VBA Response: Non-concur. VA assists Servicemembers in filing a Quick Start claim up to 180
     days prior to their projected date of separation. VA does not consider in its timeliness calculation
     the period between receipt of the Quick Start claim and the servicemember’s separation from
     service because:

     • 	 VA has no legal authority to pay benefits until the claimant is separated from military service.
         Therefore, a fully developed claim must be held until the servicemember is separated.
     • 	 The active duty service time may be extended, or the servicemember may decide to remain on
         active duty.
     • 	 Inclusion of time waiting for a servicemember to separate from service would not be an accurate
         measure of VA’s timeliness.
     • 	 Since the time that elapses between receipt of a pre-discharge claim and the award of benefits
         may not be directly related to the development of the claim, it should not be included in the
         measurement.

Recommendation 3: We recommend the Under Secretary for Benefits conduct recurring evaluations that
identify needed staffing adjustments to ensure sufficient staff are allocated to accomplish the timeliness
targets of the Quick Start Program or its successor.

     VBA Response: Concur. VBA is developing a new Pre-Discharge Program that will replace the
     Quick Start Program. The VBA/DoD Program Office and the Office of Field Operations (OFO) are
     working to ensure appropriate staffing allocations for the new Pre-Discharge Program. OFO
     continually evaluates staffing in all workload areas, including pre-discharge, in order to meet
     timeliness targets. VBA requests closure of this recommendation.

Recommendation 4: We recommend the Under Secretary for Benefits require Consolidated Processing
Site and intake site claims assistants staff obtain periodic training on identifying and processing claims
submitted through the Quick Start Program or its successor.

     VBA Response: Concur. The inference of this recommendation is that VBA does not properly train
     Claims Assistants on the Pre-Discharge Programs. VBA’s August 21, 2013, Fast Letter 13-20,
     “Compensation Service National Training Curriculum for Fiscal Year 2014,” (Attachment B)
     prescribes an initial curriculum, which mandated training for all newly hired Claims Assistants. In
     addition, Claims Assistants are required to complete 16 hours of station-selected training during
     fiscal year 2014. Furthermore, all personnel, including Claims Assistants, who process Benefits



VA Office of Inspector General                                                                         36
                                                                       Audit of VBA’s Quick Start Program


    Delivery at Discharge (BDD) and Quick Start claims, are required to take the training curriculum
    titled, “BDD/Paperless/Quick Start Claims Folder.” VBA requests closure of this recommendation.

Recommendation 5: We recommend the Under Secretary for Benefits modify Systematic Technical
Accuracy Reviews to include a systematic review of claims processed through the Quick Start Program
or its successor.

    VBA Response: Concur. VBA has made revisions to the Quality Assurance Plan to include special
    focused reviews of Quick Start claims that are identified by a third digit modifier of seven. These
    reviews will take place bi-annually each June and December. VBA requests closure of this
    recommendation.

Recommendation 6: We recommend the Under Secretary for Benefits establish policies and procedures
requiring Consolidated Processing Site managers to analyze trends of systemic issues identified during
Quality Review Team and Systematic Technical Accuracy Review evaluations of claims processed
through the Quick Start Program or its successor.

    VBA Response: Concur. As noted in the response to recommendation five, VBA has made
    revisions to the Systematic Technical Accuracy Reviews to conduct special focused reviews of
    Quick Start claims that are identified by a third digit modifier of seven. The results of these reviews
    will be included in our regularly scheduled quarterly error analysis reports that are shared with all
    RO management to include consolidated processing site managers. This feedback to ROs began in
    December 2013 (covering FY 2013). Quarterly feedback began in January 2014 and will continue.
    VBA also implemented local Quality Review Teams (QRT) in March 2012. The local QRT
    communicates findings with consolidated processing site managers for analysis of trends of claims
    processed through the Quick Start Program. VBA requests closure of this recommendation.

Recommendation 7: We recommend the Under Secretary for Benefits establish policies and procedures
requiring Consolidated Processing Site managers to provide staff recurring training on systemic issues
identified during trend analyses of Quality Review Team and Systematic Technical Accuracy Review
results.

    VBA Response: Concur. As noted in response to recommendation 6, currently each regional office,
    including the Quick Start sites, receives a quarterly report on the benefit entitlement errors noted for
    that office under the Systematic Technical Accuracy Review. This quarterly reporting began in
    January 2014. This report provides information on specific areas that require training based on the
    STAR findings. The local Quality Review Teams have access to error-trend reports, which are
    based on local and national errors, to focus local training efforts on areas where the most
    predominant errors are occurring. VBA requests closure of this recommendation.

Recommendation 8: We recommend the Under Secretary for Benefits revise policies and procedures to
clarify that evidence must establish a nexus linking veterans’ claimed conditions to military service
regardless of diagnosis proximity to discharge.

    VBA Response: Non-concur. The rules for the establishment of a nexus linking a veteran’s claimed
    conditions to service are already published in 38 C.F.R. § 3.303 and § 3.159. VBA notes that there
    are no separate evidentiary standards that have been established for Quick Start claims and that a
    nexus between the current disability and military service must be shown for all conditions, as
    provided in these aforementioned regulations.

    For direct service connection, 38 C.F.R. § 3.303 requires an event, injury, or disease in service;
    competent lay or medical evidence of current diagnosed disability or persistent or recurrent
    symptoms of disability; and a nexus between the current disability and the in-service event, injury, or
    disease. Additionally, service connection may be established by a showing of chronicity and
    continuity following service that relates the current disability back to the service period. Per 38



VA Office of Inspector General                                                                           37
                                                                       Audit of VBA’s Quick Start Program


    C.F.R. § 3.159(a)(2): “Lay evidence is competent if it is provided by a person who has knowledge of
    facts or circumstances and conveys matters that can be observed and described by a lay person.”

    Section 3.159(c)(4) of title 38 C.F.R. requires a medical opinion only if “the information and evidence
    of record does not contain sufficient competent medical evidence to decide the claim, but... contains
    competent lay or medical evidence of a current diagnosed disability or persistent or recurrent
    symptoms of disability… and, indicates that the claimed disability or symptoms may be associated
    with” military service. Per 38 C.F.R. § 3.159(c)(4)(ii), a medical opinion is not necessary if there is
    “competent evidence showing post-service treatment for a condition, or other possible association
    with military service.” The regulations, as noted, sufficiently outline the rule for the establishment of
    a nexus linking a veteran’s claimed conditions to service.

Recommendation 9: We recommend the Under Secretary for Benefits require Consolidated Processing
Site managers to ensure staff adhere to Veterans Benefits Administration policies related to service
connection while processing claims received through the Quick Start Program or its successor.

    VBA Response: Concur. All regional offices currently ensure that staff members adhere to VBA
    policies related to service connection. As noted in the response to recommendation 5, VBA has
    made revisions to the Quality Assurance Plan to include special focused reviews of Quick Start
    claims that are identified by a third digit modifier of seven. These reviews will take place bi-annually
    each June and December. These reviews will be shared with consolidated processing site
    managers. VBA requests closure of this recommendation.




VA Office of Inspector General                                                                            38
                                                                 Audit of VBA’s Quick Start Program


Appendix F 	 OIG Response to Under Secretary for Benefits
             Technical Comments

                    The Under Secretary for Benefits comments included 12 technical
                    comments. For 6 of the 12 technical comments, the OIG revised its report to
                    address VBA’s concerns. The remaining six technical comments and the
                    OIG’s responses are discussed below.

Technical 
         OIG Report Statement (Page 2): VBA improved its ADTC by reducing
Comment 1 
         after discharge processing days from 250 days in 2011 to 192 days for the
                    period April through June 2013. However, the before-discharge processing
                    days increased from 41 days to 57 days for the same period. The
                    evidence-gathering phase averaged 125 days, or the same as the Secretary’s
                    125-day average target for completing all phases of claims processing.

                    Management Comment: VBA non-concurs with this finding, as it is
                    unclear, misleading, and has no relation whatsoever to claim processing
                    timeliness. The length of this period of time prior to separation is completely
                    at the discretion of the servicemember. Generally, Quick Start allows
                    servicemembers to file a claim anytime within the last 180 days on active
                    duty. The fact that “before-discharge processing days” increased is a direct
                    reflection of the point in time at which servicemembers elected to file their
                    claims.

                    OIG Response: The report statement highlights a trend that a higher percent
                    of VBA’s total claims-processing time is occurring during pre-discharge
                    time. In 2011, the pre-discharge time was 14 percent (41 pre-discharge days
                    ÷ 291 total claims-processing days) and for the period April through June
                    2013 the pre-discharge time was 23 percent (57 pre-discharge days
                    ÷ 249 total claims-processing days). This further emphasizes why VBA
                    needs to include pre-discharge time in its claim-processing timeliness
                    calculations. Measuring, analyzing, and reporting the time VBA has prior to
                    servicemembers’ discharge to process claims allows stakeholders to fully
                    evaluate VBA’s ability to effectively use this time to help ensure veterans
                    receive their benefits as soon as possible after discharge. We reiterate that
                    VBA does not accurately report the total time taken to process claims and
                    provide veterans their benefits when it excludes pre-discharge time from its
                    claims-processing timeliness calculations.

Technical 
         OIG Report Statement (Page 5): However, VOR does not track pending
Comment 2 
         days for individual Quick Start claims from the date VBA receives and
                    establishes active servicemembers’ claims to the date DoD discharges
                    servicemembers. Therefore, CPS staff did not have this VOR information
                    available to identify and process the oldest pending Quick Start claims first.




VA Office of Inspector General                                                                  39
                                                                 Audit of VBA’s Quick Start Program


                    Management Comment: VBA non-concurs with this statement. An active
                    duty servicemember does not have “status” or eligibility to receive VA
                    disability compensation benefits. It is not until the day following separation
                    from service that a veteran becomes eligible to receive compensation.
                    Timeliness can only be measured beginning when a claimant achieves
                    veteran status and has basic eligibility for a benefit. Similarly, when
                    prioritizing workload based on oldest pending claims, workload is prioritized
                    based on those waiting longest from the date of claim or separation from
                    service, whichever is latest.

                    OIG Response: VBA believes it should not include the pre-discharge
                    Quick Start claims processing time in its timeliness calculations. The fact
                    that servicemembers are not eligible to receive VA disability benefits does
                    not prevent VBA from tracking the time and resources spent developing
                    Quick Start claims before servicemembers are discharged from military
                    service.

                    By not including this time in its timeliness calculations, VBA can report
                    more timely Quick Start claims processing to stakeholders. However, by
                    taking this approach, VBA does not accurately report the total time taken to
                    process claims and provide veterans their benefits. If VBA does not measure
                    the true representation of the time it takes to process Quick Start claims, it
                    cannot accurately determine the resources needed to process the claims
                    timely. Not monitoring claims-processing activities during the pre-discharge
                    period also limits VBA’s information on challenges in this stage of claims
                    processing and may inhibit VBA from taking action to address them.

Technical           OIG Report Statement (Page 5):             VBA executives contend that
Comment 3           pre-discharge claims-processing time should not be included in timeliness
                    performance measures because some pre-discharge claims-processing
                    activities are outside VBA’s control, such as the time VA facilities take to
                    schedule and complete medical examinations.

                    Management Comment: VBA non-concurs with this statement, as it is
                    inaccurate. VBA’s rationale for not including pre-separation days in
                    processing time is two-fold. First, as a matter of law and as explained above,
                    an active duty servicemember does not have veteran status and is therefore,
                    not eligible to receive VA disability compensation benefits. Second, a
                    pre-discharge claim that is fully developed prior to separation from active
                    duty cannot be decided or promulgated until after separation, when veteran
                    status is attained. To include time waiting for a servicemember to separate
                    and attain veteran status would not provide an accurate measure of VBA’s
                    claims processing timeliness.

                    OIG Response: See the OIG response to the Under Secretary for Benefits’
                    comments on Recommendation 2 in the body of this report and the OIG’s
                    response to technical comment 2 earlier in this appendix.


VA Office of Inspector General                                                                  40
                                                                  Audit of VBA’s Quick Start Program


Technical           OIG Report Statement (Page 15): VBA’s STAR staff reviewed the claim
Comment 4           in November 2013 and agreed the rating specialist should not have denied
                    the veteran’s claim without receiving an adequate C&P medical examination.

                    Management Comment: VBA does not concur with this statement, as
                    VBA’s STAR staff did not agree with OIG’s finding that the rating specialist
                    should have granted the veteran’s claim for a left shoulder disability. VBA
                    maintains there is no benefit entitlement error associated with the denial of
                    service connection for the left shoulder because:

                    	 The evidence of record was sufficient to make a decision on this claim
                       once the examiner clarified that he had transposed the left and right
                       shoulder in error. No further information was needed to make a decision.
                       In the absence of a left shoulder condition shown in the service treatment
                       records, and the normal left shoulder exam in March 2012, the decision
                       to deny service connection for left shoulder osteoarthritis is supported by
                       the evidence of record.

                    OIG Response: The Under Secretary’s non-concurrence with the review
                    results for this claim is a reversal of VBA’s concurrence during discussions
                    with two STAR staff at VA’s Headquarters in Washington D.C. on
                    November 12-14, 2013. This is disappointing considering the good faith
                    efforts the OIG made to discuss and resolve differences prior to issuing the
                    draft report. Appendix D provides more details on these discussions.

                    VBA policies require RVSRs to return examination reports for correction if
                    they are insufficient to evaluate claimed conditions because they do not
                    include required information or they include conflicting information. In this
                    case, the medical examination in the claims folder did not include left
                    shoulder initial range of motion measurements, results of repetitive use
                    testing, or a clinical diagnosis of a left shoulder condition. The claims folder
                    did include an e-mail from the examiner that stated he did not examine the
                    veteran for the left shoulder condition. Therefore, the RVSR should have
                    returned the examination report for clarification before denying the veterans’
                    claimed condition.

Technical           OIG Report Statement (Page 17): To ensure consistency among CPSs,
Comment 5           VBA central office managers, and STAR guidance, VBA needs to revise
                    policies and procedures to clarify that evidence must establish a nexus
                    linking veterans’ claimed conditions to military service regardless of
                    diagnosis proximity to discharge.

                    Management Comment: VBA non-concurs with this conclusion. The
                    issue of proximity must not be disregarded altogether. Rather, it is one factor
                    of many, considered together with the evidence of record to establish a
                    nexus. VA’s regulations, 38 C.F.R. 3.303 and 3.159, sufficiently establish
                    the rules for consideration of this important issue. These regulations together


VA Office of Inspector General                                                                   41
                                                                  Audit of VBA’s Quick Start Program


                    confirm service connection may be granted for any disease diagnosed after
                    discharge, when all the evidence, including that pertinent to service,
                    establishes that the disease/condition was incurred in service. Since Quick
                    Start claims are submitted while the servicemember is still on active duty,
                    most times he/she does not have the benefit of an in-service exam.
                    Therefore, these regulations are applied when granting service connection.

                    OIG Response: Our audit found inconsistencies between statements made
                    by CPS managers, STAR staff and managers, and C&P program managers
                    regarding requirements on considering diagnosis proximity to discharge
                    when establishing a nexus linking veteran’s claimed conditions to military
                    service. This demonstrates a need to clarify VBA policies and procedures.
                    The OIG will close this recommendation when VBA provide its revised
                    policies and procedures clarifying that evidence must establish a nexus
                    regardless of diagnosis proximity to discharge. We request VBA provide the
                    revised policies and procedures by December 31, 2014.

Technical           OIG Report Statement (Page 23): Development Initiation. From date of
Comment 6           claim establishment to date of first evidence request. Staff request a C&P
                    examination and prepare a Veterans Claims Assistance Act letter requesting
                    applicable evidence, such as service treatment records, private medical
                    records, and verification of service.

                    Management Comment: The request for service treatment records and
                    verification of service do not occur during the development initiation phase.
                    With pre-discharge claims, servicemembers provide service treatment
                    records with their initial application. Verification of service is not requested
                    until after the member separates.

                    OIG Response: VBA’s statement is incorrect and does not reflect
                    claims-processing practices at the CPSs. During our review of claims folders
                    for sampled Quick Start claims, we found that CPSs requested service
                    treatment records during the development initiation phase which was after
                    claims had been established and before gathering evidence. Our review also
                    found that servicemembers did not always provide service treatment records
                    with their initial application. VBA acknowledged and addressed this fact
                    when it issued Fast Letter 10-29 on August 4, 2010, which provided
                    guidance to all regional offices and centers to accept pre-discharge claims
                    received without service treatment records. Finally, the OIG’s report states
                    that verification of service occurs during development initiation not that the
                    verification is performed before servicemember discharge.




VA Office of Inspector General                                                                   42
                                                                   Audit of VBA’s Quick Start Program


 Appendix G          VBA and OIG Disagreements on Claims-Processing
                     Inaccuracies

                     The Under Secretary for Benefits comments stated that VBA disagreed with
                     22 (36 percent) of 61 OIG error citations. The Under Secretary is referring
                     to 22 claims where VBA disagreed with OIG accuracy review results before
                     STAR and OIG staff discussed the review results in November 2013.
                     During these discussions, VBA reduced its disagreements by four claims and
                     the OIG agreed five claims did not have errors, thus reducing the number of
                     claims with disagreements to 13 of 56 claims. Appendix D provides
                     additional details on VBA and OIG discussions related to Quick Start
                     claims-processing inaccuracies. Generally, OIG and VBA disagreed because
                     of differences in how claims-processing errors are identified.

How VBA              VBA’s STAR Program staff review a systematic random sample of veteran
Identifies           compensation claims. VBA’s STAR Program has three classifications of
Errors
                     errors:

                        Benefit Entitlement
                        Decision Documentation/Notification
                        Administrative

                     The Benefit Entitlement accuracy rate is the official measure of
                     claims-processing accuracy and is the result used for performance
                     measurement purposes. Only outcome-related deficiencies found in the
                     claim under review are recorded as benefit entitlement errors. In other
                     words, VBA does not report all errors it identifies in claims processing as
                     errors affecting rating accuracy. VBA’s general guideline is to record an
                     error when an action taken violates current regulations or other directives.
                     Outcome-related deficiencies include, but are not limited to, errors that result
                     in an overpayment or underpayment to a claimant and deficiencies that
                     would result in a remand from the Board of Veterans’ Appeals if not
                     corrected.

How OIG              OIG benefits inspections at VA Regional Offices are strictly compliance-
Identifies           oriented. We determine whether CPSs complied or failed to comply with
Errors
                     VBA policy for claims processing. We report errors, classifying them as
                     those that affect veterans’ benefits and those that have the potential to affect
                     veterans’ benefits. Typically, errors that have the potential to affect
                     veterans’ benefits involve situations where the claims folders did not contain
                     the evidence, such as a medical examination needed to properly evaluate the
                     claimed condition. We identify errors that have the potential to affect
                     veterans’ benefits that could lead to incorrect benefit payments in the future
                     if left uncorrected.




 VA Office of Inspector General                                                                   43
                                                                   Audit of VBA’s Quick Start Program


Claims with         Below is an explanation of the 13 claims where VBA and OIG disagreed
VBA and OIG         with the Quick Start claims-processing accuracy results.
Disagreements
Claim 1             The Winston-Salem CPS granted service connection for status post left ankle
                    fracture. However, the VA medical examination report noted there was no
                    current active pathological diagnosis for the left ankle. CPS staff concurred
                    with this inaccuracy. STAR staff stated that even though the VA examiner
                    reported no active pathological diagnosis of the left ankle, VBA has
                    historically granted service connection for bone fractures even if there are no
                    residuals.

                    VBA policy states that service connection means the evidence establishes a
                    particular injury resulting in disability was incurred coincident with service.
                    Even though the veteran fractured his left ankle in service, the evidence
                    showed no current active pathology. Therefore, the OIG concluded the
                    RVSR inaccurately granted service connection.

Claim 2             The Winston-Salem CPS granted service connection for a right hip strain.
                    The veteran only claimed service connection for a left hip condition and
                    service treatment records did not include any complaints, treatment, or
                    diagnosis of a right hip condition. CPS staff concurred with this inaccuracy.
                    STAR staff stated the evidence was sufficient to grant service connection for
                    right hip strain even though the VA medical opinion did not address the
                    requested opinion for the right hip strain.

                    VBA policy states that service connection means the evidence establishes
                    that a particular injury resulting in disability was incurred coincident with
                    service. Further, VBA policy states an examination report that does not
                    address all disabilities, for which an examination was requested, will be
                    returned as insufficient.      Therefore, the OIG concluded the RVSR
                    inaccurately granted service connection.

Claim 3             The Winston-Salem CPS granted service connection for residuals of a
                    mid-tibial stress fracture right leg and residuals of a distal radius fracture left
                    wrist even though there was no evidence of a current disability. CPS staff
                    concurred with this inaccuracy. STAR staff stated that VBA has historically
                    granted service connection for bone fractures even if there are no residuals.

                    VBA policy states that service connection means evidence establishes a
                    particular injury resulting in disability was incurred coincident with service.
                    Even though the veteran fractured his left wrist and had a right tibia stress
                    fracture in service, the evidence showed no current disability. Therefore, the
                    OIG concluded the RVSR inaccurately granted service connection.

Claim 4             The San Diego CPS granted service connection for adjustment disorder with
                    anxiety. However, the veteran’s service medical records did not include




VA Office of Inspector General                                                                      44
                                                                  Audit of VBA’s Quick Start Program


                    complaints of a mental condition during military service. Therefore, the OIG
                    concluded the RVSR inaccurately granted service connection.

                    STAR staff disagreed citing this was not a benefit entitlement error.
                    However, the Federal Circuit Court in its decision (Walker vs. Shinseki,
                    dated February 21, 2013, No. 2011-7184) held that the provisions of 38
                    C.F.R. 3.303(b), including those pertaining to continuity of symptomatology,
                    which may be used to establish service connection between a current disease
                    and symptoms observed during service or a presumptive period, apply only
                    to chronic diseases identified in 38 C.F.R. 3.309(a). For other diseases that
                    may be considered chronic, but are not identified in 38 C.F.R. 3.309(a), the
                    claim must be analyzed through 38 C.F.R. 3.303(a), which requires a
                    medical nexus between the condition in service and the current disability as
                    part of the standard three-element test for entitlement to disability
                    compensation.

Claim 5             The Winston-Salem CPS granted service connection for thoracolumbar
                    strain, patellofemoral syndrome, left knee, and left ankle strain. However,
                    the claims folder did not include any medical evidence linking these
                    conditions to military service. Therefore, the OIG concluded the RVSR
                    inaccurately granted service connection.

                    STAR staff disagreed because the decision to grant the disabilities was
                    clearly not erroneous and did not rise to the level of clear and unmistakable
                    error. STAR staff stated that since the veteran was diagnosed with
                    disabilities within 40 days after discharge that it is a judgment call as to
                    whether or not a nexus opinion is needed. However, as discussed in
                    number 4 above, a medical nexus is required between the condition in
                    service and the current disability as part of the standard three-element test for
                    entitlement to disability compensation.

Claim 6             The Winston-Salem CPS granted service connection for tension headaches
                    with a non-compensable evaluation. However, the RVSR should have
                    assigned a 30 percent evaluation because the VA examination report
                    indicated the veteran suffered from frequent prostrating and prolonged
                    attacks of migraine headache pain that occurred more frequently than once
                    per month.

                    STAR staff argued that the inaccuracy was not a benefit entitlement error,
                    nor did it rise to the level of a clear and unmistakable error under 38 CFR
                    3.105(a). In their opinion, the RVSR weighed and rejected the lay evidence
                    from the VA examination. STAR staff also stated the overall evidence as a
                    whole did not support the fact the veteran was having prostrating type
                    headaches, nor did it support the frequency of such headaches. According to
                    38 C.F.R. 4.124(a), a 30 percent evaluation is assigned for characteristic
                    prostrating attacks occurring on an average of once a month over last several



VA Office of Inspector General                                                                    45
                                                                 Audit of VBA’s Quick Start Program


                    months. Therefore, the OIG concluded the RVSR inaccurately granted
                    service connection as non-compensable instead of 30 percent.

Claim 7             The Winston-Salem CPS granted service connection for residual fracture
                    right arm. However, the VA examinations report did not diagnose a residual
                    right arm fracture. STAR staff stated that VBA has historically granted
                    service connection for bone fractures even if there are no residuals. VBA
                    policy states that service connection means the evidence establishes that a
                    particular injury resulting in disability was incurred coincident with service.
                    Even though the veteran fractured his right arm in service, the evidence
                    showed no disability. Therefore, the OIG concluded the RVSR inaccurately
                    granted service connection.

Claim 8             The San Diego CPS denied service connection for bilateral knee conditions
                    because the veteran failed to report to the VA examination. However, the
                    veteran’s service medical records noted complaints of bilateral knee pain
                    while on active duty and the CPS did not request the C&P knee and lower
                    leg examinations. CPS staff concurred with this inaccuracy.

                    STAR staff noted the responsibility to order specific examinations for
                    musculoskeletal conditions outside the scope of the general medical
                    examination lies with the VA medical center. Although the list of
                    examinations ordered by the VA medical center did not specifically include a
                    “knee” joint examination, the cancellation request lists various cancelled
                    orthopedic examinations due to the veteran’s failure to report. STAR staff’s
                    opinion was that because the veteran failed to report for the examinations, it
                    is not clear whether the examiner would have addressed the bilateral knee
                    condition during one of the scheduled orthopedic examinations. VBA policy
                    states a medical examination is necessary if the information and evidence or
                    record does not contain sufficient competent evidence to decide the claim.
                    Therefore, the OIG concluded the RVSR inaccurately denied service
                    connection.

Claim 9             The Winston-Salem CPS granted service connection for residual shoulder
                    dislocation, left shoulder. The RVSR evaluated the veteran at 20 percent
                    disabling based on recurrent dislocation of the scapulohumeral joint with
                    infrequent episodes and guarding of movement only at the shoulder level.
                    However, the Disability Benefits Questionnaire showed the veteran had no
                    guarding of the shoulder. Therefore, the OIG concluded the RVSR
                    inaccurately evaluated the shoulder condition at 20 percent instead of 10
                    percent.

                    STAR staff argued the veteran had a confirmed history of recurrent
                    dislocation of the left shoulder with infrequent episodes, and assigning a 20
                    percent evaluation would be a judgment call not rising to the level of a clear
                    and unmistakable error. However, OIG concluded as the RVSR’s decision
                    was factually inaccurate, the error was upheld.


VA Office of Inspector General                                                                  46
                                                                 Audit of VBA’s Quick Start Program


Claim 10            The San Diego CPS failed to follow VBA policy when the RVSR did not
                    return a VA medical examination as insufficient to fully evaluate a suspected
                    veteran’s respiratory condition. On a VA general medical examination
                    report, the examiner noted the respiratory condition of sleep apnea.
                    Although the corresponding questionnaire was required to be completed, it
                    was not completed. STAR staff stated there was no benefit entitlement error
                    associated with failing to obtain the proper questionnaire to address the
                    unclaimed condition of sleep apnea. There was no diagnosis of sleep apnea
                    and the veteran did not claim a respiratory condition. VBA policy states that
                    the general medical examiner must fully evaluate any disability that is found
                    or suspected according to the applicable worksheet for each disorder.
                    Therefore, the OIG concluded that the RVSR inaccurately processed the
                    claim.

Claim 11            The San Diego CPS incorrectly evaluated the veteran’s service-connected
                    bilateral patellofemoral pain syndrome at zero percent disabling. The VA
                    examination showed full range of motion in both knees without pain.
                    However, the examiner noted functional impairment of both knees due to
                    disturbance of locomotion and interference with sitting, standing, and weight
                    bearing. Further, the examiner noted the veteran’s bilateral patellofemoral
                    pain syndrome impacts the veteran’s ability to work because activities
                    involving weight bearing (standing, walking, and running) cause bilateral
                    knee pain. The RVSR should have granted a 10 percent evaluation for the
                    veteran’s left and right patellofemoral pain syndrome.

                    STAR staff stated that even though the examiner reported there was
                    functional loss of both knees, the examiner based the report on subjective
                    complaints from the veteran. At the time of the examination, the objective
                    evidence did not support a compensable evaluation. VBA policy states that
                    disturbance of locomotion and interference with sitting, standing, and weight
                    bearing are factors to consider in regard to joint disability. Even when there
                    is no compensable limitation of motion, it is the intention to recognize
                    actually painful, unstable, or misaligned joints as at least minimally
                    compensable. Therefore, the OIG concluded the RVSR under-evaluated the
                    veteran’s bilateral patellofemoral pain syndrome.

Claim 12            The San Diego CPS incorrectly evaluated the veteran’s service-connected
                    hypertension at zero percent disabling when the medical evidence showed
                    diastolic readings of predominantly 100 or more. Additionally, a VA general
                    medical examination report noted the conditions of sleep apnea and
                    post-traumatic stress disorder. Although VBA policy requires VA examiners
                    to complete corresponding questionnaires, they were not completed.

                    CPS staff concurred with this inaccuracy. STAR staff stated the overall body
                    of evidence, including the multiple blood pressure readings taken in the
                    18 months prior to the VA examination, failed to show diastolic readings that
                    were predominately 100 or more. Further, they stated that even though the


VA Office of Inspector General                                                                  47
                                                                 Audit of VBA’s Quick Start Program


                    examiner is required to evaluate any disability that is found or suspected, in
                    this case, even if the examinations were conducted and showed a current
                    condition related to service, service connection could not be granted without
                    soliciting a claim because the veteran did not claim sleep apnea or
                    post-traumatic stress disorder. STAR staff believed there was no benefit
                    entitlement error as the outcome of this veteran’s claim was not affected.

                    VBA policy states that diastolic pressure predominantly 100 or more
                    warrants a 10 percent evaluation for hypertension. VBA policy also states
                    that the general medical examiner must fully evaluate any disability that is
                    found or suspected according to the applicable worksheet for each disorder.
                    Therefore, the OIG concluded that the RVSR under-evaluated the veteran’s
                    hypertension and CPS staff failed to follow VBA policy.

Claim 13            The San Diego CPS staff incorrectly evaluated a veteran’s right knee arthritis
                    at 20 percent disabling based on dislocated semilunar cartilage with frequent
                    episodes of "locking," pain, and effusion in the joint. The VA medical
                    examiner noted that the veteran had a meniscus tear with locking, pain, and
                    effusion in the right knee, but also noted that the veteran did not have a
                    meniscal dislocation. CPS staff concurred with this inaccuracy.

                    STAR staff stated that meniscal dislocation need not be present in order to
                    assign the 20 percent evaluation. VBA policy states that a meniscal
                    dislocation be present in order to warrant a 20 percent evaluation for the
                    meniscus condition. Therefore, the OIG concluded the RVSR over-evaluated
                    the veteran’s right knee arthritis.




VA Office of Inspector General                                                                  48
                                                       Audit of VBA’s Quick Start Program


Appendix H          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments    Kent Wrathall, Director
                                         Melissa Colyn
                                         Marci Davis
                                         Lee Giesbrecht
                                         Earl Key
                                         Annie Li
                                         Whittie Lockett
                                         Jamillah Mallory
                                         Jessica Rodriguez
                                         OIG Benefits Inspectors
                                         Brent Arronte, Director
                                         Orlan Braman
                                         Daphne Brantley
                                         Brett Byrd
                                         Danny Clay
                                         Ramon Figueroa
                                         Kerri Leggiero-Yglesias
                                         Lisa Van Haeren




VA Office of Inspector General                                                        49
                                                              Audit of VBA’s Quick Start Program


Appendix I          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               50
